APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of appeals opinion,
August 27, 2019 ............................... 1a

Appendix B:

Court of appeals order
denying rehearing,
October 2, 2019 .............................. 12a

Appendix C:

Pretrial hearing transcript,
September 12, 2016 ....................... 13a

Appendix D:

Change of plea hearing
transcript,
September 19, 2016 ....................... 46a

Appendix E:

Sentencing transcript,
March 1, 2017 ................................. 89a

1a
APPENDIX A
United States Court of Appeals
For the Eighth Circuit
_________________________
No. 17-1649
_________________________
United States of America
Plaintiff - Appellee
v.
Andre G. Dewberry
Defendant - Appellant
_____________
Appeal from United States District Court
for the Western District of Missouri - Western Division
_____________
Submitted: January 16, 2019
Filed: August 27, 2019
_____________
Before GRUENDER, KELLY, and GRASZ, Circuit
Judges.
_____________
GRASZ, Circuit Judge.

2a
Andre Dewberry pled guilty to being a felon in
possession of a firearm. As required by the binding plea
agreement, the district court1 sentenced Dewberry to 60
months of imprisonment. Dewberry appeals, arguing he
was denied his Sixth Amendment right to selfrepresentation. We hold he waived the challenge by
pleading guilty and accordingly affirm the judgment.
I. Background
In January 2015, the Kansas City, Missouri Police
Department stopped a vehicle driven by Dewberry, who
was a convicted felon. Police observed Dewberry exit the
vehicle and toss a black handgun underneath. Police
recovered a pistol from under the car.
A grand jury indicted Dewberry on one charge of
felon in possession of a firearm in violation of 18 U.S.C.
§§ 922(g)(1) and 924(a)(2). The district court appointed a
public defender to represent Dewberry. Eventually,
Dewberry requested permission to proceed pro se. The
magistrate judge granted Dewberry’s request and
appointed the same public defender as standby counsel.
Dewberry later moved to have the district court appoint
substitute counsel. The district court denied the motion,
giving Dewberry three options: (1) continue to represent
himself; (2) hire a new attorney; or (3) request that the
public defender resume representation.
During a pretrial conference held days before the
scheduled trial, after some back and forth with Dewberry
The Honorable Dean Whipple, United States District Judge
for the Western District of Missouri.
1

3a
regarding an evidentiary issue as it related to Dewberry’s
defense strategy, the district court terminated
Dewberry’s pro se representation and reappointed the
public defender as counsel. Dewberry voiced his objection
to the reappointment.
Before trial, Dewberry pled guilty to the charge in
a plea agreement. The plea agreement included a binding
term of 60 months of imprisonment under Fed. R. Crim.
P. 11(c)(1)(C). The plea agreement also contained an
appeal waiver, providing that Dewberry waived his right
to appeal or collaterally attack a finding of guilt following
the acceptance of this plea agreement. The appeal waiver
included the following provision:
The defendant expressly waives his right to
appeal his sentence, directly or collaterally, on
any ground except claims of (1) ineffective
assistance of counsel; (2) prosecutorial
misconduct; or (3) an illegal sentence. An
“illegal sentence” includes a sentence imposed
in excess of the statutory maximum, but does
not include less serious errors, such as
misapplication of the [United States]
Sentencing [Commission] Guidelines, an
abuse of discretion, or an imposition of an
unreasonable sentence.
The public defender represented Dewberry at the
change of plea hearing. The district court accepted the
plea after engaging in a Rule 11 plea colloquy to determine
Dewberry’s plea was knowing, voluntary, and made after
being advised of his trial and constitutional rights. The
district court asked Dewberry three times if he had been

4a
threatened or coerced in any manner to cause him to enter
into this plea, to which he answered no each time. The
district court also read the appeal waiver and asked
Dewberry if he understood it, to which Dewberry
responded yes.
In the presentence investigation report,
Dewberry’s United States Sentencing Commission
Guidelines Manual (“Guidelines”) range was calculated as
46 to 57 months of imprisonment. At the sentencing
hearing, the district court formally accepted the plea
agreement and sentenced Dewberry to the agreed-upon
term of 60 months of imprisonment.
In March 2017, Dewberry filed a pro se document,
which we treated as a Notice of Appeal. The public
defender then filed an Anders brief, see Anders v.
California, 386 U.S. 738 (1967), expressing her view the
plea agreement prohibited an appeal of the issues on
which Dewberry wished to proceed. However, the public
defender also asserted the district court violated
Dewberry’s Sixth Amendment right to proceed pro se.
We appointed Dewberry new counsel under the
Criminal Justice Act and ordered the parties to brief the
following issues: (1) whether Dewberry’s plea of guilty
waived his ability to challenge the denial of his Sixth
Amendment right to self- representation; and (2) whether
Dewberry’s conduct warranted the district court’s denial
of self-representation. In its briefing, the government
conceded Dewberry’s conduct did not justify the district
court’s denial of Dewberry’s right to proceed pro se, but
argued the reappointment of counsel was warranted
because Dewberry did not unequivocally assert his right

5a
to self-representation when asked by the district court
during the pretrial evidentiary hearing. The government
also argued Dewberry waived his right to appeal by
pleading guilty.
II. Analysis
Before considering whether the district court
violated Dewberry’s Sixth Amendment right to selfrepresentation, see Faretta v. California, 422 U.S. 806
(1975), we will address whether he waived his right to
appeal the district court’s alleged denial of this right by
pleading guilty. We conclude Dewberry waived his right
to appeal this claim.
“A valid guilty plea . . . waives a defendant’s
‘independent claims relating to the deprivation of
constitutional rights that occurred prior to’ pleading
guilty.” United States v. Pierre, 870 F.3d 845, 848 (8th Cir.
2017) (quoting Tollett v. Henderson, 411 U.S. 258, 267
(1973)); see also United States v. Limely, 510 F.3d 825, 827
(8th Cir. 2007) (stating a “valid guilty plea is an admission
of guilt that waives all non-jurisdictional defects and
defenses”). “[C]ase-related constitutional defects” are
made “irrelevant to the constitutional validity of the
conviction” by a guilty plea “[b]ecause the defendant has
admitted the charges against him.” Class v. United States,
138 S. Ct. 798, 804–05 (2018) (quoting Haring v. Prosise,
462 U.S. 306, 321 (1983)).
However, a guilty plea does not waive all claims. A
waiver does not occur, for example, when the defendant’s
plea was not made intelligently, voluntarily, and with the
advice of counsel. See Tollett, 411 U.S. at 265. Nor does a

6a
guilty plea waive a defendant’s right to facially challenge
the Government’s ability to constitutionally charge him in
the first place. See Class, 138 S. Ct. at 805–06 (holding a
guilty plea did not waive an argument that the
government did not have the power to criminalize the
charged and admitted conduct); United States v. Broce,
488 U.S. 563, 575 (1989) (quoting Menna v. NY, 423 U.S.
61, 62 n.2 (1975)) (“[A] plea of guilty to a charge does not
waive a claim that — judged on its face — the charge is
one which the State may not constitutionally prosecute.”).
The first task before us then is to decide whether
the Sixth Amendment right to represent oneself is the
type of right that is waived by a voluntary and intelligent
guilty plea or whether it fits into an exception. Although
we have never answered this question directly, other
circuits have.
The majority of the circuits to reach the issue have
held a defendant waives the right to bring a claim for a
potential violation of the right to proceed pro se by
pleading guilty. See United States v. Moussaoui, 591 F.3d
263, 280 (4th Cir. 2010) (holding a defendant’s guilty plea
foreclosed his Faretta challenge); Werth v. Bell, 692 F.3d
486, 497 (6th Cir. 2012) (same); Gomez v. Berge, 434 F.3d
940, 942–43 (7th Cir. 2006) (same); United States v.
Montgomery, 529 F.2d 1404, 1406–07 (10th Cir. 1976)
(holding the same and observing a contrary conclusion
would “open the door to manipulations and
gamesmanship”).
The only circuit to hold otherwise is the Ninth
Circuit. See United States v. Hernandez, 203 F.3d 614, 627
(9th Cir. 2000) (overruled on other grounds by Indiana v.

7a
Edwards, 554 U.S. 164 (2008)). In Hernadez, the Ninth
Circuit held that because the district court wrongly denied
the defendant’s request to represent himself, it rendered
his guilty plea involuntary. 203 F.3d at 627. The court
reasoned the “district court’s refusal to allow [the
defendant] to exercise the right of self-representation
forced him to choose between pleading guilty and
submitting to a trial the very structure of which would be
unconstitutional.” Id. at 626. This choice placed
“unreasonable constraints” on his decision to plead guilty.
Id. The court stated: “When a defendant is offered a
choice between pleading guilty and receiving a trial that
will be conducted in a manner that violates his
fundamental Sixth Amendment rights, his decision to
plead guilty is not voluntary.” Id. at 627. The court
reasoned that the decision was not voluntary because “he
ha[d] not been offered the lawful alternative—free
choice—the Constitution requires.” Id.
Dewberry urges us to follow an approach nearly
identical to the one used in Hernandez and hold his guilty
plea was involuntary based on the earlier denial of his
right to represent himself. But we see no basis to conclude
a district court’s improper denial of a defendant’s Sixth
Amendment right to self-representation categorically
transforms the defendant’s later decision to plead guilty
into a per se involuntary decision. As the Fourth Circuit
explained, Hernandez’s rationale is based on the false
premise that the defendant who is denied his right to
represent himself is forced to either plead guilty or submit
to an unconstitutional trial. Moussaoui, 591 F.3d at 280.
The premise is faulty because “if the defendant proceeded
to trial and was convicted, he could seek an appellate
remedy for the constitutional violations he alleged.” Id. In

8a
addition, we have noted that “if a defendant wishes to
preserve his right to appeal, he should enter a conditional
plea of guilty, ‘reserving in writing the right to have an
appellate court review an adverse determination of a
specified pretrial motion.’” Limely, 510 F.3d at 827
(quoting Fed. R. Crim. P. 11(a)(2)).
More importantly, the approach used in
Hernandez is inconsistent with Supreme Court
precedent. See Luce v. United States, 469 U.S. 38, 42
(1984) (holding that in order to preserve a claim of
improper impeachment the defendant is required to
testify at trial); Tollett, 411 U.S. at 267 (“[A] guilty plea
represents a break in the chain of events which has
preceded it in the criminal process.”). That precedent
informs us that “case-related constitutional defects” are
made “irrelevant to the constitutional validity of the
conviction” by a later guilty plea “[b]ecause the defendant
has admitted the charges against him.” Class, 138 S. Ct at
804–05 (quoting Haring, 462 U.S. at 321). Hernandez’s
approach turns the rule on its head by making a
defendant’s admission of guilt irrelevant because of an
earlier purported case- related constitutional defect.
Therefore, we join the majority of circuits and hold a
potential violation of the right to proceed pro se does not,
in and of itself, render a plea involuntary.
Based on the above analysis, we conclude
Dewberry waived his right to bring his Sixth Amendment
claim unless he can show us on the specific facts of his case
that he did not enter the plea knowingly and voluntarily.
Based on the current record, we have no basis to reach
such a conclusion.

9a
At the change of plea hearing, the district court
complied with Fed. R. Crim P. 11(b) in its colloquy with
Dewberry, which is strong evidence the plea was knowing
and voluntary. The district court personally addressed
Dewberry in open court and made sure he knew and
understood his rights and that he was waiving his trial
rights if his plea was accepted. The district court also went
over the plea terms with Dewberry and repeatedly
questioned him to ensure the plea was voluntary and did
not result from force, threats, or coercion. This detailed
record of questioning about Dewberry’s understanding
supports the district court’s finding he knowingly and
voluntarily entered the plea.
We therefore hold Dewberry waived his right to
challenge the district court’s decision to deny him his Sixth
Amendment right to represent himself. Although the
district court may have violated Dewberry’s right to selfrepresentation, Dewberry is barred from bringing his
appeal on this record. Therefore, we decline to address the
merits of this Sixth Amendment argument.
III. Conclusion
For the reasons set forth herein, we affirm.
KELLY, Circuit Judge, concurring in the judgment.
In my view, the record makes clear that the district
court violated Dewberry’s right to self-representation
when it reappointed counsel to represent him. The
presence of that structural error may have rendered
Dewberry’s guilty plea involuntary. But because the
current record is not fully developed on the second issue,

10a
I would not decide it on direct appeal. I therefore concur
in affirming the judgment.
This court reviews de novo a district court’s refusal
to allow a defendant to represent himself. See United
States v. LeBeau, 867 F.3d 960, 973 (8th Cir. 2017). “A
request to proceed pro se is constitutionally protected
only if it is timely, not for purposes of delay, unequivocal,
voluntary, intelligent and the defendant is competent.”
Jones v. Norman, 633 F.3d 661, 667 (8th Cir. 2011)
(cleaned up); see also Faretta, 422 U.S. at 835–36. Here,
the magistrate judge found that Dewberry’s request to
represent himself checked all of the Faretta boxes, and so
he granted Dewberry’s request. No one challenges that
ruling. When the district court later terminated
Dewberry’s representation, it explained that it did so “to
get this plea worked out” and to “help [him] get ready for
trial.” But these are not valid reasons to bar a defendant
from representing himself. See United States v. Smith,
830 F.3d 803, 810 (8th Cir. 2016) (“Defendants have a right
to present unorthodox defenses and argue their theories
to the bitter end. . . . [F]ailure to respond to a proposed
plea agreement [does not] warrant denial of the right of
self-representation at trial.” (cleaned up)). Thus, the
district court impermissibly denied Dewberry his right to
represent himself at trial.
That brings me to the only issue addressed by the
court: whether Dewberry waived his right to selfrepresentation by pleading guilty. The denial of the right
to self-representation is a structural error. See United
States v. Gonzalez-Lopez, 548 U.S. 140, 148–49 (2006); see
also McCoy v. Louisiana, 138 S. Ct. 1500, 1508 (2018). But
it seems that structural errors “can still be waived.”

11a
Jackson v. Bartow, 930 F.3d 930, 934 (7th Cir. 2019)
(“[T]he consequence of a ‘structural’ error is that it is not
subject to harmless-error review; but such errors can still
be waived.” (citation omitted)); see also Moussaoui, 591
F.3d at 280 n.12. So I agree with the court that the
outcome of Dewberry’s appeal hinges on whether his
guilty plea was knowing and voluntary. This is the sort of
issue that is often better deferred to post-conviction
proceedings under 28 U.S.C. § 2255, as it usually involves
facts outside the original record. See United States v.
Agboola, 417 F.3d 860, 864 (8th Cir. 2005); United States
v. Murphy, 899 F.2d 714, 716 (8th Cir. 1990). I see no
reason to depart from the usual rule here, as an invalid
plea “is not readily apparent in the current record.”
Agboola, 417 F.3d at 864. But Dewberry is not barred
from challenging the validity of his guilty plea—or raising
a claim of ineffective assistance of counsel—in a postconviction proceeding.

12a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 17-1649
United States of America
Appellee
v.
Andre G. Dewberrry
Appellant
_________________________________________________
Appeal from U.S. District Court for the Western District
of Missouri - Kansas City
(4:15-cr-00053-DW-1)
_________________________________________________
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
October 02, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
________________________________________
/s/ Michael E. Gans

13a
APPENDIX C
[1]

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION

________________________________
)
UNITED STATES OF AMERICA )
) CASE NO. 15-CR) 00053-DW-1
VS.
) KANSAS CITY,
) MISSOURI
)
ANDRE G. DEWBERRY
)
________________________________)
HEARING
BEFORE THE HONORABLE DEAN WHIPPLE
September 12, 2016
APPEARANCES:
For the Plaintiff:

MR. STEFAN HUGHES
U.S. Attorney’s Office
400 E. 9th Street, Suite 5510
Kansas City, MO
64106

For the Defendant:

ANDRE G. DEWBERRY,
Pro se

For the Defendant:

MS. CARIE ALLEN,
Standby Counsel
Assistant Federal Public

14a
Defender
818 Grand, Suite 300
Kansas City, MO
64106

Transcribed by:

BARBARA BARNARD,
RPR, CRR
Official Court Reporter
400 East 9th Street, Room
8420
Kansas City, Missouri 64106
(816) 512-5622

Proceedings recorded by mechanical stenography;
transcript produced by computer.
[2]

(Defendant present.)
THE COURT: Good afternoon. Please be seated.

Court will call Case No. 15-00053, United States of
America versus Andrew Dewberry. Is the government
ready to proceed?
MR. HUGHES: Yes, Your Honor.
THE COURT: Defense ready to proceed?
THE DEFENDANT: Yeah.
THE COURT: Mr. Dewberry, that order we just
gave you was your motion to not admit your prior

15a
convictions at trial, and that’s been denied.
We’re here on the government’s motion in limine
to limit the defendant’s discussion of his affirmative
defense.
Government have anything further — I’ve read
your briefs, but certainly you can orally state your
position. Anything else I need to know?
MR. HUGHES:

No, Judge.

I’ll stand by my

written motion.
THE COURT: All right. Mr. Dewberry, your
response, please?
THE DEFENDANT: I hadn’t had time to put
together a brief for all of that, which I explained many
times over with the magistrate, and actually gave him
quite a bit of material in regards to why, so which —
THE COURT: Mr. Dewberry, any material you
want me to hear, present it now.
[3]

THE DEFENDANT: Okay. Then I’ll just hand it

to you.
THE COURT: No, you tell me what it is before
you had it to me. I’m not going to read it.
THE DEFENDANT: Oh.
THE COURT: If you haven’t filed it, I’m not going

16a
to read it. I’ll let you explain it to me now.
THE DEFENDANT: Okay.
THE COURT: Do you want to sit there, or do you
want to come up to the podium? Looks like you got a fair
amount of material.
THE DEFENDANT: Yeah, I did grab some stuff.
The justification defense that I looked into, that wasn’t the
angle in which I chose to go. It’s what they came up with,
because I’m not a lawyer. Been kind of forced into this
situation.
So the four elements I was actually working on to
show relevancy on the four elements. You know, I was
working on those. Being that I don’t — my resources is
what they are is the reason why the time — you know, I
was asking about the time situation. But I do have some
material, my argument on those four elements —
THE COURT: Okay. What is it?
THE DEFENDANT: — based on myself.
THE COURT: Alright.
THE DEFENDANT: It is somewhere here that I
can handle. I can read off, but my hands are — is it okay
if I stand up?
[4]

THE COURT: Yes, sir.

17a
THE DEFENDANT: It works a little better.
THE COURT: Marshal, what’s your position on
freeing one of his hands, whatever his dominant hand is?
MARSHAL: If that’s what you want, Judge then
it’s alright.
THE COURT: Are you right or left handed, Mr.
Dewberry?
THE DEFENDANT: Right.
THE COURT: Marshals, why don’t you uncuff his
right hand, give him a little more mobility in dealing with
his papers, please.
THE DEFENDANT: Do you want me to read the
whole thing, sir?
THE COURT: No, I want you to summarize it.
THE DEFENDANT: You want me to summarize
it. Okay. The four elements that they suggest that you
need for a justification defense is necessity, only
availability choice is two, and reasonable belief of the
defendant, three, and reasonable alternative, which I
actually — I address in Stover and several other cases
that are pointed out here in the — you know, here in my
summary along with the things that were happening to me
as an individual.

18a
The reason why I wasn’t choosing the justification
defense personally is because —
THE COURT:

Wait a minute.

You say you

weren’t selecting —
[5]

THE DEFENDANT: I wasn’t, no.
THE COURT: Who is?
THE DEFENDANT: Well, the —
THE COURT: Who selected it? You’re the one

who has to raise the defense. And I understand that Ms.
Allen —
THE DEFENDANT: That is correct, and I was
pre —
THE COURT:

Ms. Allen is standby defense

attorney; is that right?
THE DEFENDANT: I understand, and she has
no insight for me at all on this.
THE COURT: Okay.
THE DEFENDANT:

She was asking me

questions, and I thought that was pretty odd from day
one. So we — pretty much where we’re at on that. I didn’t
really understand that.
So the elements I was trying to raise was just basic
elements of where, when, why, how and what. You know

19a
what I mean?
THE COURT: Okay. All right. Now, let me ask
you, Mr. Dewberry. What was the — what was the threat,
imminent threat when the police stopped you and you got
out of that car?
THE DEFENDANT: There actually — at the
time, there wasn’t one. The officer —
THE COURT: Okay. Then your first defense fails
period. You can’t prove the first count, the first element
of the four. It’s not the threat from the past. It’s not the
threat from the [6] future. It was your mindset when you
got out of that car with that pistol.
Now, let’s cut through this.
THE DEFENDANT: Okay.
THE COURT: Do you understand that? Now,
what was the threat that you were about to be killed or
beat up right then when you stepped out of that car with
a gun in your hand?
THE DEFENDANT: That’s pretty much why I
made sure the officer didn’t —
THE COURT: That’s not a threat when an officer
stops you. What else you got?
THE DEFENDANT: No, I never said there was

20a
a threat. See, that’s why I wasn’t using — that wasn’t my
angle of using this —
THE COURT:

Okay.

Then I can grant the

government’s motion to suppress any evidence about
justification because you’re not relying on it. Is that what
you’re telling me?
THE DEFENDANT: In essence, yes and no. See,
because prior — see, we’re looking for rele — also
relevancy should play a part also.
THE COURT: No, it shouldn’t.
THE DEFENDANT: It shouldn’t.
THE COURT:

It was your status and your

mindset at the time you were stopped with a gun in your
hand. Nothing else.
Am I stating that right, counselor?
[7]

MR. HUGHES: Absolutely, Your Honor.
THE COURT: Okay. That’s the way I read the

same case law that the government’s looked at.
THE DEFENDANT: So is there —
THE COURT: U.S. versus Blankenship and U.S.
versus Tom Lee Poe.
THE DEFENDANT: So basically nothing prior
— nothing prior to the incident?

21a
THE COURT: That’s correct.
THE DEFENDANT:

It’s only that particular

time that happened?
THE COURT: At the time you were found in
possession, yes, sir.
THE

DEFENDANT:

Well,

I

—

my

understanding was a little different because like — like I
read things like a female that gets raped, and then later
she does something to defend herself, but she gets
justified. And I get kind of throwed off because if she —
if she knew she was going to get raped, she probably
would have took precautions, stuff like that. It kind of
throws me off, because I’m not — like I said, I’m not a
lawyer.
THE COURT: Well, that’s why I’m trying to get
you back on track. That’s why I asked you, what was the
immediate threat of retaliation at the time you were
stopped and stepped out of that car with a pistol in your
hand?
THE DEFENDANT: The only —
[8]

THE COURT: There has to be justification at that

point to have the pistol in your hand. Now, what was the
threat?

22a
THE DEFENDANT: The officer was not the
threat.
THE COURT: Okay. Then there’s no threat.
Then element No. 1 cannot be satisfied. You got to prove
all four elements. You can’t prove one, so we’re done.
THE DEFENDANT: But before I got in the car,
it couldn’t have been a threat.
THE COURT: Exactly. Mr. Dewberry, why don’t
we do this. Those written documents you’ve got, I’ll look
at them, but I’m going to — we’re going to get ready for
trial. I’m going to deny your motion because you can’t
prove the first element. And we’re going to trial on this
next Monday, and you will be prohibited rom telling the
jury in any way during voir dire or during trial that you
felt you were justified, because you were not.
THE DEFENDANT:

Then I probably should

have got killed before I got in the car. Then we wouldn’t
be here.
THE COURT: Why would you even say that? The
officers wouldn’t have shot you.
THE DEFENDANT: Because that’s why we’re
here. You don’t understand. You see, there’s nothing
happened before I got in the car. So if I died before I got

23a
in the car —
THE COURT: Wait a minute, wait a minute.
THE DEFENDANT: — we wouldn’t be here.
[9]

THE COURT: When you got in which car?
THE DEFENDANT: The vehicle that got pulled

over.
THE COURT: Okay. So you got in that car.
THE DEFENDANT: Before I got in the car.
THE COURT:

Okay.

You were in fear of

something?
THE DEFENDANT: Now you’re starting to pick
up on it.
THE COURT: Okay.
THE DEFENDANT: But like you said, there’s
nothing happened, there’s no relevancy before.
THE COURT: That’s right.
THE DEFENDANT:

So since there’s no

relevancy before and I died before, then I wouldn’t be
here.
THE COURT: So nothing happened.
THE DEFENDANT: So it’s not relevant.
THE COURT: You need to argue what was the
justification at the time the police saw you with the pistol

24a
period. That’s all we’re going to try.
THE DEFENDANT: I messed up. I’m still alive.
THE COURT: Okay. Fine. Motion in limine is
sustained. You cannot raise — I’m ruling you can’t raise
that as a defense, all right, sir? There’s no need to waste
anymore time on this because you’ll have some other
theory.
THE DEFENDANT: It’s not — it’s not a theory.
THE COURT: That’s the prevailing law.
THE DEFENDANT:

But it’s actually not a

theory.
[10]

THE COURT: It is. You must prove there was an

imminent threat facing you when you stood with a gun in
your hand. Not before. The fact that your girlfriend
might have been murdered later, that is not relevant, is
what I am trying to explain to you, Mr. Dewberry.
THE DEFENDANT: Then, I mean, we need to —
I asked him.

He could have just went with capital

punishment. We would have got this over with a long time
ago.
THE COURT: We don’t do capital punishment for
possession of a weapon.
THE DEFENDANT: Well, I mean, why? You

25a
know what I mean? Come on.
THE COURT: No, you come on. You come on.
THE DEFENDANT: You can’t — if you can’t —
if there’s nothing you can do to stop somebody from
hurting you, then you just go on and die. This is all I’m
asking. There’s — I don’t have a choice. There’s no other
choice here.
THE COURT: Listen to me. Listen to me. You
had to be in fear of death at the time —
THE DEFENDANT: Everybody keeps saying
that.
THE COURT: — you stepped out of that car with
the pistol. Before and after is not relevant.
THE DEFENDANT:

Then I’m still here.

I

messed up because I’m here.
THE COURT: No, you didn’t mess up.
[11]

THE DEFENDANT: I should have died. We

keep coming up with the same thing. Had I died, maybe
somebody else would be here, not me.
THE COURT: We’re going to trial on whether you
had prior felony convictions. And I’ve just given you a
ruling that those are going to come in in evidence before
the trial. And then the government is going to put on

26a
evidence whether or not you were in possession of that
pistol they allege you stepped out of the car with, and you
will not be permitted to testify or call witnesses saying you
had some threats that existed before that night or after
that night, all right, sir?
THE DEFENDANT: So nobody knows nothing.
So basically —
THE COURT: Doesn’t make any difference what
they know. We’re not trying what people know or should
have known. It’s what happened and whether you have
prior convictions in possession of a weapon period. 8th
Circuit has ruled on this over and over. Over and over.
THE DEFENDANT: And I got proof that the 8th
Circuit also ruled on some stuff that overruled it too.
THE COURT: Let me have it.
THE DEFENDANT: You are correct. That’s
what I said.
THE COURT: All right. What is it? Have you got
a case I missed? Let me look at it.
THE DEFENDANT: The 8th Circuit does not
acknowledge [12] none — not the justification defense.
They don’t argue — they don’t allow a justification
defense at all because of the four elements.

27a
THE COURT:

That’s just what we’ve been

discussing. That’s right. And you can’t prove those four
elements.
THE DEFENDANT: No, to — to prove all four
elements, no. But to actually — let the argument be like
I’ve got case law here that shows like Panter and other
people that the judge in the 8th Circuit — well, I guess St.
Louis wouldn’t be here.
THE COURT: That’s 8th Circuit. That’s —
THE DEFENDANT: You know, let them argue,
say, well, you argue your side. He argue his.
THE COURT: That’s the Poe case, wasn’t it? I’m
not going to let you argue it.
THE DEFENDANT: Well, if there’s — if there’s
no argument —
THE COURT: It’s not a valid defense, so you
cannot argue it. The Court was wrong. I think you’re
talking about Poe, or I’m not sure.
THE DEFENDANT: The other judges — like
you said, the other judges is wrong.
THE COURT: You can — we’re going to trial, Mr.
Dewberry. If you’re found to have prior convictions and
you were in possession of a weapon that day, whatever it

28a
was, January 20th, 2015, we’ll have the jury make that
determination. [13] I’m not going to let you argue or
present evidence on justification.
And if the jury finds you guilty, you can appeal my
rulings and the fact I wouldn’t let you argue it to the 8th
Circuit, but you can’t at trial. We’re going through this
trial.
THE DEFENDANT: We’ll go through the trial,
but I was actually — I wasn’t arguing — again, that was
the magistrate’s idea that I look into justification.
THE COURT: Okay. Well, you’ve looked, and I’m
telling you it doesn’t fit, okay?
THE DEFENDANT: I seen that when I first
came in here.
THE COURT: Well, I don’t know when you saw
that, but I followed the law. And I require the attorneys
to follow the law, and I require the people who represent
themselves to follow the law. That’s the bottom line, Mr.
Dewberry. You can’t make up the law, and you can’t pick
and choose a case that you think ought to apply when I’m
telling you it doesn’t.
THE DEFENDANT: Actually, I wasn’t, sir. I
was not.

29a
THE COURT: Okay. Anything else? Anything
else?
MR. HUGHES: No, Your Honor.
THE COURT: All right. We’re going to — Mr.
Dewberry, if you want me to read that paperwork, I will,
but we’re going to prepare for trial.
Now, are you still going to represent yourself, or
do you want Ms. Allen to help you?
[14]

THE DEFENDANT: She’s — again, why do you

keep asking me that? She’s not — what part are y’all not
hearing? She says she ain’t going to do it, and y’all can’t
make her do it.
THE COURT: Now, wait a minute. I thought you
fired her. Ms. Allen, did —
THE DEFENDANT:

She’s actually said that

several times in open court. I can’t get the transcripts,
but I can prove it.

Again, it probably isn’t relevant

because it’s not relevant. Is that what you’re telling me?
It’s not relevant when she says she doesn’t want to be on
the case? That ain’t relevant neither?
THE COURT: I haven’t heard her say that.
THE DEFENDANT: You didn’t have to say that.
It’s on court records.

30a
THE COURT: My information was you fired her.
You wouldn’t —
THE DEFENDANT: It’s on court records that
she don’t want to be on the case.

I actually have

documents on it too.
THE COURT: Let’s ask Ms. Allen.
THE DEFENDANT: She doesn’t want to be on
the case.
THE COURT: Ms. Allen, do you want to represent
him, or what’s the problem?
MS. ALLEN: Your Honor, I filed a motion to
withdraw probably eight, nine months ago, but that was
after consulting with Mr. Dewberry and that he wanted
me to withdraw from the case and he wanted to have new
counsel appointed. I did do that [15] at his request.
THE COURT: All right.
MS. ALLEN: Because there was a breakdown in
communication. I absolutely will represent Mr. Dewberry
if the Court wants me to represent Mr. Dewberry and if
Mr. Dewberry wants me to represent him and doesn’t
want to represent himself. That is not an issue.
THE COURT: What do you say, Mr. Dewberry?
THE DEFENDANT: We can’t play that — how

31a
can you play that game?
THE COURT: I’m not playing a game. She said
she’ll represent you. Now, what’s wrong? What —
THE DEFENDANT: So she can — so you’re
telling me that nothing prior is not relevant.
THE COURT: That’s right.
THE DEFENDANT: Then it is to me.
THE COURT:

Well, then, you raise that on

appeal.
THE DEFENDANT: It is —
THE COURT: Ms. Allen is —
THE DEFENDANT: She can’t — how can she
represent me?
THE COURT: You have to cooperate. You have
to work with her.
THE DEFENDANT: No, she can’t represent me
because what happened prior is relevant.
THE COURT: No, no.
[16]

THE DEFENDANT: And you can’t say — there’s

no way you can say — if she quit, there’s no way you can
say she’s fired — she’s hired again after she quit.
THE COURT: Well, I’m going to. We’ll solve that.
I’ll reappoint her, if you think she’s not appointed, and

32a
direct her to be prepared to go to trial next Monday
morning.
THE DEFENDANT: Then I’ll represent myself
like I have been doing, because she quit.
THE COURT: Listen to me. She just said she
would represent you at trial. I just reappointed her.
THE DEFENDANT: I mean, you reappointed
her.
THE COURT: Yes, sir.
THE DEFENDANT: To who, me?
THE COURT: Yes, sir. To represent you at trial
next Monday morning.
THE DEFENDANT: So she’s going to — she’s
going to represent me?
THE COURT: Yes, sir.
THE DEFENDANT: On what defense?
THE COURT:

I can’t tell her what defense.

Justification she can’t use. I’ve just ruled you can’t do
that. I’ve just ruled that’s not a defense. You’re not going
to give evidence on it to the jury. We’re not going to
instruct on it, on justification. That’s out.
THE DEFENDANT: So she can quit, and you can
make her do [17] it?

33a
THE COURT: I won’t play that game with you.
I’ve already told you I’ve reappointed her. She said she
would represent you. Now you’re just trying to —
THE DEFENDANT: No, because —
THE COURT: — keep from going to trial.
THE DEFENDANT: — I already had done this,
and she can’t — she can’t just say — do you know what I
mean?
THE COURT: Why can’t she?
THE DEFENDANT: She can’t do that.
THE COURT: Why can’t she? Why can’t she?
THE DEFENDANT: So basically you’re saying
everybody can do what they want to do; but if somebody
threatened my life, I can’t say nothing.
THE COURT: I never said that.
THE DEFENDANT: Then I keep saying, hey,
why don’t we just go on and kill me now? We don’t even
have to have the damn trial. We can just go out back with
a bullet and get this over with.
THE COURT: Now, Mr. Dewberry —
THE DEFENDANT:

Do you know what I’m

saying? Because —
THE COURT: Yeah, I hear what you’re saying

34a
and —
THE DEFENDANT: — you do what you want to
do —
THE COURT: You’re being ridiculous. You’re
being ridiculous. Stop it.
[18]

THE DEFENDANT: That’s got to be — you got

to be kidding me. So you’re telling me —
THE COURT: No, you got to be kidding me.
THE DEFENDANT: If somebody threatened to
kill me and I call the police, and I got records that I kept
calling the police, you say that don’t matter you kept
calling the police. What you should do is — basically you
wish I was dead.
THE COURT: No, sir.
THE DEFENDANT: I’m not dead, so basically
I’m here to prove why I did what I did. You saying, well,
you could have never done nothing because you got to be
perfect, and I said okay.
THE COURT: I didn’t say any of that.
THE DEFENDANT: And now my lawyer quit
and does what she wants to do. And you said, well, she’s
your lawyer again. Well, she doesn’t want to do it.
THE COURT: Your mindset —

35a
THE DEFENDANT: You got to be kidding me.
THE COURT: Your threat has to be in existence
at the time you got out of the car, not before and not
afterwards. It’s when you were stopped that night on
January the 20th.

And you’ve argued there is none.

You’ve admitted there is none. That’s all we’re going to
try.
THE DEFENDANT: There’s never going to be a
threat at exactly 30 seconds. Do you understand what I’m
saying? That [19] makes no — that makes no sense.
THE COURT: No, that’s not — no, you don’t
understand what I’m saying. No, you’re not trying to
listen to what I’m saying. The threat has to be in existence
at the time you were found in possession of a weapon
period.
THE DEFENDANT: Then the only other thing
is to die. I mean, you’re making it very clear —
THE COURT: No, I didn’t say —
THE DEFENDANT: — because once —
THE COURT: No, the only thing you can do is go
to trial and let a jury decide whether or not you were in
possession of a weapon on January the 20th, 2015 and
have prior felony convictions.

That’s the only issues.

36a
That’s what we’re going to try.
THE DEFENDANT: I mean, if you want — I just
don’t know what to say. If you want to have a trial saying
that he had a weapon in his hands, then that’s what they
going to do.
THE COURT: No, I’m not going to tell them what
to do. I’m going to let them decide.
THE DEFENDANT: You just told her what to
do.
THE COURT: Yeah. Well, I — no, she said she’d
represent you. I reappointed her to represent you. Come
on, Mr. Dewberry.
THE DEFENDANT: Because she’s scared of
you.
THE COURT: You know what you’re doing.
[20]

THE DEFENDANT:

You just told her to

represent me —
THE COURT: Yes.
THE DEFENDANT: — because of fear. She’s
afraid of you, or she wouldn’t have done it.
THE COURT: No, she isn’t.
THE DEFENDANT: Come on, man. You got to
be kidding me because —

37a
THE COURT: No, you got to be kidding me.
THE DEFENDANT: Her career is on the line if
she don’t do it. You know it.
THE COURT: No, it isn’t.
THE DEFENDANT:

And you know it.

Her

whole — her life and her career is on the line if she don’t
follow your rules.
THE COURT: No, that’s not —
THE DEFENDANT: Yes, it is. She probably
won’t ever work again, and she would have to leave town.
THE COURT: She appears in front of me all the
time.
THE DEFENDANT: And you know it.
THE COURT: Yes, I know she appears, and she’s
a good attorney, and she’ll do a good job —
THE DEFENDANT: But she already quit.
THE COURT: — if you listen. Now, you’re not
listening to me.
THE DEFENDANT: Okay. Well, let me ask you
this. Let me ask you this, right? She told me — she told
me, right, that [21] when we were —
THE COURT: No, it’s not right.
THE DEFENDANT: — first putting this case

38a
together, she said, “Well, why don’t you say somebody
else threw the gun under the car?” I said, That’s a lie. I
ain’t going to do that.”
THE COURT: Oh, well, I don’t care. I don’t
believe that.
THE DEFENDANT: See there? That’s why I
said — that’s why I said I didn’t want her from the
beginning. That’s why I said I didn’t want her from the
beginning.
THE COURT: Do you have any statement — now,
this is ridiculous. You just want to argue. I’m through
arguing with you. We’re going to trial Monday morning.
Do you have civilian clothes to wear? What do you have
to wear?
THE DEFENDANT: What do you mean? I got
on clothes.
THE COURT: You don’t want to have —
THE DEFENDANT:

What are you talking

about?
THE COURT: Do you want to have a pair of dress
slacks?
THE DEFENDANT: You’ve already decided me,
bro. What are you talking about? You said there’s no

39a
problem. I have no problem. I got proof that I been in the
hospital and everything. I got proof. You said there
wasn’t no problem when I got in the car. There was only
a problem —
THE COURT: The problem was when you got out.
THE DEFENDANT: — when the officer pulled
me over. And [22] I complied with the officer, and you said
I shouldn’t have been — I shouldn’t have been a threat
because I complied with the officer.
So basically I should have made sure the officers
shot me like they do with the rest of them brothers out
there. They should have shot me in the face like he done
the last guy.
THE COURT: Getting ready for trial. You have
any friends or relatives that can get you —
THE DEFENDANT: Then I’m pretty sure you
got a gun up there. We can get this over right out back.
THE COURT: We don’t have a gun up here. My
goodness.
THE DEFENDANT: You know you got a gun up
there.
THE COURT:
courtroom.

I’ve never had a gun in this

40a
THE DEFENDANT: We can get this over with.
Like we don’t even have to have a trial. I’m cool with it.
I’m okay with it because it’s already — you already made
it clear what’s going to happen.
THE COURT: The only other option I can think
of, do you want to plead guilty?
THE DEFENDANT: Plead guilty to what?
THE COURT:

Being a previously convicted

felon —
THE DEFENDANT: Not even.
THE COURT:

— in possession of a weapon

period.
THE DEFENDANT: Only if you’re going to give
capital punishment.
[23]

THE COURT: I don’t give capital punishment.
THE DEFENDANT: Then you’re messing up

there. I think you should. Because this is relevant. When
people were trying to kill me, you’re laughing about it.
You think, actually think this is funny. When I was laying
in the hospital beat to death, you think that type of stuff
is funny, and that’s not — really not funny. And my wife
got killed too, and you think all this is funny. None of this
is funny.

41a
THE COURT: No.
THE DEFENDANT: So if I was dissing that type
of stuff on you, you would probably want to bring me up
on charges.
THE COURT: Now, now, now, you’re not even
talking common sense.
THE DEFENDANT:

So which type of stuff

would be beyond —
THE COURT: No, no, no.
THE DEFENDANT: The other side of it. If
somebody hit you in the face and busted your eye open,
you probably would have wanted to defend your damn
self.
THE COURT: Mr. Dewberry, I’ve already ruled.
It has to be an imminent threat at the time you were
observed in possession of the weapon by police officers
when they stopped you on January 20th of this year.
That’s it. That’s all we’re going to try.
Now, do you want to contact some friends? Or I
don’t know [24] whether the public defenders has some
clothes, free clothes or something.
MS. ALLEN:

We’ve offered to get him some

clothes. I had Iris talk to him about that. I don’t know

42a
that he wants us to.
THE COURT: Okay. If he doesn’t —
MS. ALLEN: We have offered to do that.
THE COURT: All right.
MS. ALLEN: Your Honor, I do just want to clarify
one thing.
THE COURT: Okay.
MS. ALLEN: I don’t know if Mr. Dewberry would
still be choosing to go pro se if I were representing him. I
just wanted to clarify for the Court. Is the Court denying
any desire he has to go pro se and appointing me next
week?
THE COURT: Yes.
MS. ALLEN: If that’s the case, that’s fine. I just
wanted to make sure I understood.
THE COURT: I’m denying his request to go pro
se, and I’m reappointing you —
MS. ALLEN: Okay.
THE COURT: — to represent the defendant. And
if you have any voir dire or other proposed instructions,
please get them filed, because now we’ve got —
THE DEFENDANT: I can’t even defend myself
now.

43a
THE COURT: Well, you haven’t done any good at
it yet, [25] Mr. Dewberry. Why would you want to do it
later?
THE DEFENDANT: You know what? You know
what, man? You know what? Sometimes — I used to
think Timothy McVeigh was wrong, but I see he was
probably angry, and it’s because this makes no sense.
THE COURT: Why doesn’t it make sense?
THE DEFENDANT: Because between two —
THE COURT: Mr. —
THE DEFENDANT: When I was trying to speak
up for myself, didn’t nobody want to listen. Then when I
do speak up, you tell me to shut the — shut up. So I don’t
understand.
THE COURT: Yes, you do, but you —
THE DEFENDANT: No, I have no idea.
THE COURT: You have three priors. Don’t act to
me like you’ve never been to court.
THE DEFENDANT: Oh, I got three priors, and
I knew — and I kept them people up off from me, but I
wish I hadn’t. I wish I hadn’t. And I hope — I hope —
THE COURT: That’s hindsight.
THE DEFENDANT: I hope before I even get

44a
here next week that I get stabbed to death because I
almost been —
THE COURT: I’m sorry you think that way. I
don’t.
THE DEFENDANT: So — and then the joke
would be on you.
THE COURT: We’re going to trial next Monday,
and there’s no joke on here.
[26]

THE DEFENDANT: So I hope I’m dead before I

get here.
THE COURT: All right. We’ll be here at 8:30 for
pretrial.

Marshals, if you would tell whoever is

accommodating Mr. Dewberry.
COURTROOM DEPUTY: It’s set at 1:00.
THE COURT: Oh, that’s right, 1:00, because we
got three other trials. We’ll start at 1:00. I’m sorry. 1:00
Monday morning, Mr. Dewberry.
If you want street clothes, you need to let the —
doesn’t the public defender have some clothes?
THE DEFENDANT: I’m going to wear a robe.
THE COURT: No. You wear what you got.
THE DEFENDANT: Since all this is funny, I got
a joke too.

45a
THE COURT: No, you’re trying to make a joke of
it.
THE DEFENDANT: I want to wear a robe.
THE COURT: No. Motion is denied. This case is
continued or set for trial Monday morning.
THE DEFENDANT: And he’s laughing, you son
of a —
THE COURT: Now, now, now. Marshals, please
give Mr. Dewberry — well, give him time to talk to his
attorney. When he’s finished talking to his attorney, he’s
ready to go. Thanks for coming in. Be in recess. See you
at 1:00 Monday.
*

*

*

(Court adjourned.)
[27]

(End of requested transcript)
-oOo-

I certify that the foregoing is a correct transcript
from the record of proceedings in the above matter.
Date: June 7, 2017
/s/_______________________
Signature of Court Reporter
Barbara Barnard

46a
APPENDIX D
[1] IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
________________________________
)
UNITED STATES OF AMERICA )
) CASE NO. 15-CR) 00053-DW-1
VS.
) KANSAS CITY,
) MISSOURI
)
ANDRE G. DEWBERRY
)
________________________________)
CHANGE OF PLEA
BEFORE THE HONORABLE DEAN WHIPPLE
SEPTEMBER 19, 2016
APPEARANCES:
For the Plaintiff:

MR. STEFAN HUGHES
U.S. Attorney’s Office
400 E. 9th Street, Suite 5510
Kansas City, MO
64106

For the Defendant:

MS. CARIE ALLEN,
Assistant Federal Public
Defender
818 Grand, Suite 300
Kansas City, MO
64106

Transcribed by:

BARBARA BARNARD,
RPR, CRR

47a
Official Court Reporter
400 East 9th Street, Room
8420
Kansas City, Missouri 64106
(816) 512-5622
Proceedings recorded by mechanical stenography;
transcript produced by computer.
[2]

(Defendant present.)
THE COURT: Good afternoon. Please be seated.

Good afternoon, Mr. Dewberry. How are you?
THE DEFENDANT: I’m not sure sometimes.
THE COURT: Okay. Well, I understand you’ve
negotiated a plea, so let me call this case and we’ll talk
about it.
Court will call Case No. 15-00053, United States of
America versus Andre Dewberry. Mr. — you’re Andre
Dewberry; is that correct?
THE DEFENDANT: Yeah.
THE COURT: Why don’t you come up to the
podium because I’m going to — in taking that plea, I’m
going to need to talk to you a lot, so let’s start with you
coming up to the podium. Then I’ll — then from there, I’ll

48a
have you go over to the witness stand.
Again, you’re Andre Dewberry; is that correct?
THE DEFENDANT: Yes, sir.
THE COURT: And I’ve been advised — well,
here. I have the original signed copy. You’ve negotiated
a binding plea agreement with the government and
wishing to withdraw your plea of not guilty previously
entered on this charge that we were going to have a trial
on, subject to the terms of the plea agreement; is that
correct?
THE DEFENDANT: Yeah, that’s correct.
THE COURT: Here’s how we do it. I will permit
you to [3] withdraw your plea of guilty. Now I’m going to
have the government read the charge to you and advise
you of the range of punishment. Then we’ll — I’ll ask you
how you plead, and then we’ll talk about the binding plea
agreement.
MR. HUGHES: Good afternoon, Your Honor.
THE COURT: Good afternoon.
MR. HUGHES: The indictment reads that on or
about January 20th, 2015, in the Western District of
Missouri, Andre D. Dewberry, defendant herein, having
been convicted of crimes punishable by imprisonment for

49a
a term exceeding one year, did knowingly possess in and
affecting commerce a firearm, to wit: A Grendel, G-R-EN-D-E-L, Model P10, .380 caliber handgun bearing serial
number 22754, which had been transported in interstate
commerce contrary to provisions of Title 18, United
States Code, Sections 922(g) (1) and 924(a) (2).
The range of punishment for a conviction of this
crime carries a — no more than ten years imprisonment,
no more than a $250,000 fine, no more than three years of
supervised release, and a $100 mandatory special
assessment.
THE COURT: Thank you.
Mr. Dewberry, do you understand what you’re
charged with in this case?
THE DEFENDANT: Yes.
THE COURT: Do you understand the range of
punishment for that charge the government just read to
us?
[4]

THE DEFENDANT: Yeah.
THE COURT:

Part of that punishment, Mr.

Dewberry, is that not more than three years supervised
release.

That’s considered part of the punishment

because after you serve any time in jail or prison, when

50a
you’re released, you’re released and placed on supervised
release. It’s the same thing that the state calls probation
or parole.
There are rules you must abide by. If you violate
the rules, that can be the basis, after a hearing to
determine if you did violate the rules, to revoke your
supervised release and order you to spend more time in
jail or prison. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: So knowing the offense with which
you’re charged and the range of punishment for that
offense, what is your plea to this charge, guilty or not
guilty?
THE DEFENDANT: Guilty.
THE COURT: Before I can accept your plea, Mr.
Dewberry, I need to ask you some additional questions
under oath, make a record that you know and understand
what you’re pleading guilty to.
Now, further, we’re going to talk about this is a
binding plea agreement. And I’ll tell you now, I’m not
going to accept your plea of guilty until — well, I guess I
accept the plea of guilty subject to the terms of the
binding plea agreement.

But [5] before I accept the

51a
binding plea agreement, I’m going to order a presentence
investigation to determine if it’s a reasonable binding plea
agreement. If it is, then we’ll go on with sentencing. If it
isn’t, I’ll set aside your plea of guilty and we’ll reset this
case for trial or another hearing. Do you understand that?
THE DEFENDANT: Yes.
THE COURT: Okay. So I need you to raise your
right hand to answer questions concerning this plea of
guilty and the plea agreement. We’re going to talk about
that too. She’ll swear you in, Mr. Dewberry.
(Defendant sworn.)
THE COURT: Mr. Dewberry, this takes some
time. Are you comfortable — you act like you’re having
trouble walking. Can you make it up on this chair up on
the witness stand? Can you come around here, or do you
want to just sit at counsel table? Do you want to sit down
in that chair behind you?
THE DEFENDANT: It’s whatever.
THE COURT: Why don’t you come up here. I can
talk to you better if we’re closer, Mr. Dewberry,.
MS. ALLEN: They’re bringing the agreement
and stuff up for you.
THE COURT: Mr. Dewberry, I’m going to ask

52a
you some background questions, and then we’ll go over
the charge in a little more detail. Then I’m going to advise
you of the plea of [6] guilty and the constitutional rights
you waive by pleading guilty. Let’s start with tell me your
name again.
THE DEFENDANT: Andre Dewberry.
THE COURT: How old are you, Mr. Dewberry?
THE DEFENDANT: 51.
THE COURT:

What’s the condition of your

physical health today? You’re walking with a cane. How
is your physical health?
THE DEFENDANT: I’m not sure sometimes.
THE COURT: Well, are you under a doctor’s care
right now?
THE DEFENDANT: No, not — not like — not
that kind of doctor’s care. I take medication.
THE COURT: Okay. Do you have any idea what
the medication is for?
THE DEFENDANT:

Well, I take muscle

relaxers and —
THE COURT: Okay.
THE DEFENDANT: — pain medication for my
hip from one of the things that happened out of this

53a
situation.
THE COURT: Okay. Now, you tell me you’re 51.
How much formal education do you have? How far did
you go in school?
THE DEFENDANT: 12th grade.
THE COURT: What type of work do you do, or
what type of job skills do you have?
THE DEFENDANT: Well, I normally work on
physical jobs. [7] I use my hands —
THE COURT: Okay.
THE DEFENDANT: — and stuff, so I — I had a
little company I was trying to get off the ground when I
— and I — that I wanted to get off the ground —
THE COURT: Okay.
THE DEFENDANT: — when I got arrested.
THE COURT:

All right.

Now, what’s the

condition of your mental health? As far as you know, are
you in good mental health?
THE DEFENDANT: I don’t know.
THE COURT: Well, you know, we had that exam,
and the doctor found that you were in mental health and
could understand the charge against you. Do you under
— do you — are you concerned about that now?

54a
THE DEFENDANT: Not really.
THE COURT: Because if you do, we’ll just have
another exam to bring it up-to-date, okay?
THE DEFENDANT: No, I don’t think they’re
going to find me crazy. Just kind of heartbroken.
THE COURT: Okay. Well, that’s understandable.
That’s understandable.
Now, let’s talk about this charge. This charge
alleged that you were found in possession of this weapon
on January the 20th of 2015. Do you agree with that date?
[8]

THE DEFENDANT: Yeah.
THE COURT: Do you remember that’s the day

the police stopped you?
THE DEFENDANT: Yes.
THE COURT: You stepped out of the car with the
gun in your hand. Do you remember that?
THE DEFENDANT: Yeah.
THE COURT: Then you pitched it underneath the
car. Do you understand that? Do you remember that?
THE DEFENDANT: Yeah.
THE COURT: Okay, all right. Now, at the time —
now, on that date at the time you were in possession of
that weapon, what was the condition of your physical

55a
health, good or bad?
THE DEFENDANT: Good.
THE COURT: What was the condition of your
mental health, good or bad?
THE DEFENDANT: Good.
THE COURT: Were you under the influence of
drugs or alcohol at the time you were found in possession
of that weapon?
THE DEFENDANT: Not at that time, no.
THE COURT: Okay. All right. Now, the charge
goes on to tell us that this offense took place in the
Western District of Missouri.

I’m going to have the

government’s attorney give us a summary of the evidence
they would present or the factual basis for filing this
charge against you, all right, sir?
[9]

MR. HUGHES: Good afternoon, Your Honor. I

would briefly summarize the evidence. On January 20,
2015 —
THE COURT: Wait a minute. Why don’t you just
come on up to the podium. The reporter has got to take
this down.
MR. HUGHES: Sorry, Your Honor.
THE COURT: That’s all right.

56a
MR. HUGHES:

On January 20th, 2015, at

approximately 10:36 p.m., Kansas City police officers
were patrolling in the area of Kansas City at 43rd and
Agnes, which is in Kansas City, Jackson County, in the
Western District of Missouri. At that time, they observed
a vehicle being driven by Mr. Dewberry, which was a
green 1998 BMW, and they ran the plates. The plates
turned out to have six active municipal warrants, and five
of those warrants were for Mr. Dewberry.
The officers stopped the vehicle. At that time the
driver and sole occupant of the vehicle, Mr. Dewberry,
opened the door, stepped out of the vehicle with a black
handgun in his hand and threw it underneath the vehicle.
Officers arrested Mr. Dewberry, and computer checks
revealed he had two prior felony convictions for robbery
and that he had been sentenced to terms of imprisonment
on those two robberies for more than one year.
The black handgun was recovered, and it was more
specifically identified as a Grendel, G-R-E-N-D-E-L,
Model P, as in Paul, 10, .380 caliber handgun bearing
serial number 22754, [10] and it was a semiautomatic
handgun.
The Special Agent Matthew Brown, who is trained

57a
as an interstate nexus expert for the Bureau of Alcohol
Tobacco Firearms and Explosives, reported that the .380
Grendel was not manufactured or produced within the
state of Missouri, and therefore, previously traveled in
interstate or foreign commerce.

That would be the

government’s evidence, Your Honor.
THE COURT: Thank you. Ms. Allen, do you want
to point out any other background or factual background
in this case?
MS. ALLEN: No. I think there’s one correction,
two things that Mr. Hughes forgot. I don’t think it’s
significant for the plea. I just want to make sure it’s
accurate. I think he stated it was a semiautomatic, and I
do believe it was a pistol.
THE COURT: You mean a revolver?
MR. HUGHES: It was not a revolver.
MS. ALLEN: I don’t know the specifics.
THE COURT: I’ll bet you Mr. — what was it, Mr.
Dewberry?
THE DEFENDANT:

Well, that’s one of the

questions I was going to ask. I didn’t — I didn’t know
when an appropriate time was. The gun — well, I mean,
we called it — it was — at one point it may — it was a gun.

58a
THE COURT: Okay.
THE DEFENDANT:

And that’s where the

charge actually [11] comes from.

When I came in

possession of it, I knew that it didn’t work, and so I
thought that it only fired — because the psychologist got
the research for me. You take and put one bullet in at a
time, which makes it a semiautomatic, because it’s not
able to shoot like an average gun.
THE COURT: Okay. Yeah.
THE DEFENDANT: So — which I didn’t know
that neither because I didn’t have any ammunition for the
gun.
THE COURT: Oh, you had no ammunition?
THE DEFENDANT: No.
THE COURT: There was no ammunition in the
gun when you —
THE DEFENDANT: And it didn’t work. I know
it didn’t work.
THE COURT: Well, how do you know it didn’t
work if you never tried it?
THE DEFENDANT: Because what you call the
firing pin —
THE COURT: Yes.

59a
THE DEFENDANT: — was — all the parts were
gone. Parts of the gun were actually missing.
THE COURT: Okay. All right. All right. But you
understand it’s still considered a handgun.
THE DEFENDANT: By it looking like a gun, yes,
sir.
THE COURT: Yes. Do you understand that?
THE DEFENDANT: Because it looked like one.
[12]

THE COURT: All right. All right. And it’s so —

you possessed — you knowingly possessed it. You knew
you had it in your possession.
Mr. Hughes, just out of curiosity, does your police
report recount the fact that it doesn’t work?
MR. HUGHES: Yes, Your Honor, it does. It was
analyzed by a Robert J. Smith, who’s a criminalist with
KCPD, and he noted that the firearm was, in fact, missing
its firing pin. However, ATF agents who were going to
testify would tell the Court that the fact that the gun was
missing its firing pin does not take it outside of the
purview of the statutory definition of a firearm, which is
contained in 18 U.S.C. 921(a) (3). It is still a firearm. The
statute is written in the disjunctive. It’s a firearm because
of the —

60a
THE DEFENDANT: It looked like it.
MR. HUGES: — the first prong and the second
prong.
THE COURT:

Okay.

It’s still considered a

firearm. Do you understand that?
THE DEFENDANT: They’re saying because it
looked like a gun.
THE COURT: That’s right.
THE DEFENDANT: Yeah.
THE COURT: Okay. All right. Do you have any
disagreement with — that it’s a Grendel Model P10, .380
caliber handgun?
[13]

THE DEFENDANT: I really didn’t know.
THE COURT: How long had you had it in your

possession?
THE DEFENDANT:

Well, that was the

interesting thing. It was — it was a gun that was probably
— that I knew somebody had found it 15 years ago
because I knew who had had it 15 years ago. And so it was
found. It was found, and it’s basically in some trash, so
that’s how I came —
THE COURT: How long had you had it in your
possession?

61a
THE DEFENDANT: How long had I had it?
THE COURT: Yeah.
THE DEFENDANT: About couple months.
THE COURT: Okay. All right. Okay. And, of
course, it says it had been transported in interstate
commerce. What that means is that it was manufactured
in some state outside the state of Missouri; and at some
point before you got it into your possession, somebody had
to haul it into Missouri.
THE DEFENDANT: Yes.
THE COURT: It could have been as simple as
over in Kansas.
THE DEFENDANT: Yes.
THE COURT: Do you understand that?
THE DEFENDANT:

That was one of the

questions I wanted to ask, because my understanding is
that the interstate commerce — now, I’m not arguing the
item —
THE COURT: Okay.
[14]

THE DEFENDANT: — you know.
THE COURT: Yeah.
THE DEFENDANT: The interstate commerce

issue is what I was referring to. How can interstate

62a
commerce — I didn’t quite understand because the gun
was in the state of Missouri ten years prior to me coming
in possession of it.
THE COURT: Yeah. That —
THE DEFENDANT: And it —
THE COURT: But it wasn’t made in Missouri.
THE DEFENDANT:

I understand it wasn’t

made.
THE COURT: So someone had to bring it into
Missouri ten years ago.
THE DEFENDANT: Ten years ago.
THE COURT:
commerce.

That makes it interstate

There’s no time limit on when it can be

brought in.
THE DEFENDANT:

Well, that’s one of the

things that I — because I don’t really get a lot of library
time in my — and that’s one of the things I was inquiring
about, because there’s a — there is a limitation, a five-year
limitation on who had it last.
THE COURT: No, there isn’t. Where did you get
that idea?
THE DEFENDANT: In the state of Missouri,
right here.

63a
THE COURT: Did you ever hear of that, Mr.
Hughes?
MR. HUGHES: No, and we’re in federal court.
And what [15] the federal law is, it doesn’t matter who
brought the gun into the state of Missouri. The critical
component is that the gun was manufactured outside the
state of Missouri.
In

this

particular

manufactured in Florida.

case,

this

firearm

was

Therefore, it had to have

crossed the line — a state line for it to be possessed by the
defendant on the day in question.
THE COURT: And there’s no time limit on when
it could have been brought in.
MR. HUGHES: Absolutely none.
THE COURT: Okay. Do you understand that,
Mr. Dewberry?
THE DEFENDANT: Yeah, I — I guess, because
it — what I was reading, it read different, so I was just
inquiring.
THE COURT: Okay.
THE DEFENDANT: The opposite of what — I’m
not arguing that it’s not a gun and all that. I was just
inquiring about —

64a
THE COURT: Interstate transportation.
THE DEFENDANT: — who had it — yes, who
had it last is not known for a fact; that I’m not the one that
brought it, and I know it was here ten years ago. And I
could tell you who got it, and so basically we both would
be getting charged with the same crime.
THE COURT: Yes, that’s right. You could have,
yes.
THE DEFENDANT: By law, that means both of
us would be guilty.
[16]

THE COURT: Yeah, if you want to testify against

him. We’re not talking about that today. But the point is
at some point — it was manufactured in Florida, and
someone had to —
THE DEFENDANT: Yes. Yes, I’m — like I said,
I’m not arguing.
THE COURT: Okay, all right.
THE DEFENDANT: I was just saying I know it
was here, and I didn’t bring it, quite some time ago.
THE COURT: I understand.
THE DEFENDANT: That is all.
THE COURT:

So that’s what you’re pleading

guilty to. Is there anything else about the charge you

65a
don’t understand?
THE DEFENDANT: Well, I was kind of — I
mean, I understand it’s a plea agreement, so the other
question I guess really wouldn’t matter because I had
asked for quite some months could I see the discovery,
and I was not allowed to, so — but it doesn’t — you know,
I mean, we’re — I kind of —
THE COURT: What are you — why are you
concerned about the discovery now? You’re not going to
trial, so it’s not going to be introduced anyway.
THE DEFENDANT:
question.

That was the other

That’s what I’m saying.

At this point, it

probably wouldn’t matter to see — you know what I’m
saying?
THE COURT: Yeah. I knew it wouldn’t matter
because — now, look. Let’s get down to the basis.
[17]

THE DEFENDANT: Yeah.
THE COURT: You stepped out of that car with a

gun in your hand.
THE DEFENDANT: Yeah.
THE COURT:

Now, that’s all the prosecutor

would have had to show the jury. Then he would have had
to show them that he transported it, that it was made in

66a
Florida and somebody hauled it in here even without
knowing who hauled it. Do you understand that?
THE DEFENDANT: Okay. I mean, I — you’re
right as far as that aspect, you know. Without, you know
— there’s just — you know, it’s a couple other things
really.
THE COURT: Well, now, Mr. Dewberry, I don’t
mean to imply you couldn’t have brought up those other
things in front of a jury, but you would have — you
wouldn’t have had to. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: Okay.
THE DEFENDANT: Okay.
THE COURT: Now, have you been threatened or
coerced in any manner to cause you or force you to plead
guilty to this charge other than we were going to trial?
THE DEFENDANT: No.
THE COURT: All right. Now, Mr. Dewberry, you
have two prior charges.

Did those result from you

pleading guilty or as [18] a result of a jury trial?
THE DEFENDANT: Me pleading guilty.
THE COURT: Okay. So you’ve pled guilty before.
That’s the only reason I’m asking, all right? Did you plead

67a
guilty on both of them?
THE DEFENDANT: Yes.
THE COURT:

Okay.

As you know, Mr.

Dewberry, when you plead guilty, you waive various
constitutional rights. I’m required to go over and explain
each one of them to you. Then I will ask you if you
understand the charge I’ve just explained to you. When
you tell me you have — you do understand it, I’ll ask you
to waive or give up that constitutional right. Do you
understand that?
THE DEFENDANT: Yes.
THE COURT: Mr. Dewberry, the bulk of these
rights hinge on your right to a jury trial. And we have a
jury in the courthouse, a jury panel to pick a jury and go
to trial this afternoon. You knew that, didn’t you?
THE DEFENDANT: Yeah.
THE COURT: By pleading guilty, you’re waiving
your right to a jury trial on this charge.

Do you

understand that?
THE DEFENDANT: Yeah.
THE COURT: Do you waive your right to a jury
trial on this trial — on this charge at this time?
THE DEFENDANT: Yes.

68a
[19]

THE COURT: Further, at that trial you would

have a right to confront the people who accuse you of
committing this crime. That’s under your right to face
and confront your accusers, and your attorney would be
given an opportunity to cross-examine them. Do you
understand that?
THE DEFENDANT: Yes.
THE COURT: By pleading guilty, you’re giving
up your right to confront — you’re waiving your right to
confront and face your accusers because you’re admitting
your guilt; and thus, your attorney cannot cross-examine
them. Do you understand that?
THE DEFENDANT: Yes.
THE COURT: So do you waive your right to
confront and face your accusers and to cross-examine
them on this charge?
THE DEFENDANT: Yes.
THE COURT: After the government had put all
its witnesses on and evidence, then you would have been
given an opportunity to present evidence you wanted a
jury to hear. Do you understand that?
THE DEFENDANT: Could you repeat that one
more time?

69a
THE COURT: After — after the government puts
its case on by putting its witnesses on, then you have the
opportunity to put your case on. You can do that by calling
witnesses you want to testify in your defense. Do you
understand that?
THE DEFENDANT: Yes.
[20]

THE COURT:

But by pleading guilty, you’re

giving up that right. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: So do you give up your right to
subpoena witnesses and to compel their attendance at a
trial on this charge?
THE DEFENDANT: Yeah.
THE COURT: After you — if we had — we’re
working our way through the trial, Mr. Dewberry. After
you had called these witnesses, then you’d have to decide
if you wanted to take the stand and testify under oath in
front of that jury. At no time would you have been forced
to or required to unless you decided that’s what you
wanted to do. Do you understand that?
THE DEFENDANT: Yes.
THE COURT:

That’s your right not to

incriminate, which means to tell on yourself, that you were

70a
in possession of that weapon. Do you understand that?
THE DEFENDANT: Yes.
THE COURT: That’s called your right against self
incrimination.
Now, you waive that right because we went over
the charge, and you admitted you were in possession of
that weapon, and you admitted that you had these two
prior robbery convictions. Do you understand that?
THE DEFENDANT: Yes.
[21]

THE COURT: So do you — so do you now waive

your right against self incrimination on this charge?
THE DEFENDANT: Yes.
THE COURT: If we had had the trial, and the
jury, after hearing the evidence and after deliberating,
had announced they had found you guilty, you would have
a right to appeal that jury’s guilty verdict to the federal
appellate courts that review what goes on at a jury trial.
Do you understand that?
THE DEFENDANT: Yes.
THE COURT: All right. And a lawyer would
represent you on that appeal challenging the jury finding
you guilty. By pleading guilty, we’re not going to have a
jury trial. So a jury is never going to find you guilty, so

71a
there’s no way to appeal your guilty verdict that’s never
going to happen. Do you understand that?
THE DEFENDANT: Yes.
THE COURT: So do you waive your right to
appeal a jury’s finding of guilty on this charge?
THE DEFENDANT: Yeah.
THE COURT: All right, sir. Now, at the time you
were stopped out there, you threw the gun under the car.
You threw some other evidence over the car. The police
officers searched the area and recovered the gun, and I
think it was a syringe. Do you remember that?
THE DEFENDANT: Yeah.
[22]

THE COURT: By pleading guilty, you’re giving

up your right to further challenge whether that search
was properly conducted to find the weapon mainly and the
drugs. Or I mean needle or syringe.
THE DEFENDANT: Yes.
THE COURT: Do you give up that right at this
time?
THE DEFENDANT: Yes.
THE COURT: Mr. Hughes, did Mr. Dewberry
make any statements that you would have been looking to
introduce into evidence?

72a
MR. HUGHES: Yes, Your Honor. He made some
statements post arrest but pre-Miranda.
THE COURT: Okay. Mr. Dewberry, by pleading
guilty, you’re giving up your right to further challenge
whether those statements you made out after you were
arrested could be introduced into evidence.

Do you

understand that?
THE DEFENDANT: What? I didn’t understand
that.
THE COURT: Okay. Mr. Hughes said when the
officers arrested you out there, you made some
statements. I don’t even know what they were.
THE DEFENDANT: Okay.
THE COURT: But Mr. Hughes is indicating to us
they might have wanted to have those officers tell the jury
what you said. By pleading guilty, you’re giving up your
right to further challenge whether Mr. Hughes would
have been allowed to [23] do that. Do you understand
that?
THE DEFENDANT: Yes.
THE COURT: And do you give up that right at
this time?
THE DEFENDANT: Yes.

73a
THE COURT: Now, is there any prior plea offers?
We need to get that on the record.
MR. HUGHES: No, Judge. This was the only plea
offer that was formally negotiated with Mr. Dewberry.
However, in the interest of being fully candid with the
Court, at the time that the defendant was representing
himself, I believe August 23rd I drafted a letter and sent
it to Mr. Dewberry at CCA informing him that if he was
not interested in pleading pursuant to the plea agreement
that he’s pleading to today, that he did have the
alternative of pleading up to the Court with no written
agreement. But we never discussed that, but I did want
to let the Court know that that was an alternative that was
mentioned to Mr. Dewberry.
THE COURT: Thank you. Do you remember
that, Mr. Dewberry?
THE DEFENDANT: Yes.
THE COURT: Okay. But anyway, there’s no prior
plea agreements, so now we need to talk about this
binding plea agreement you’ve negotiated with the
government. Now, I’m going to start with having Mr.
Hughes come up to the podium again and advise us on the
record of what you and the government agreed [24] to.

74a
Then I need to ask you some questions, all right, sir?
THE DEFENDANT: Yes.
THE COURT: All right. Mr. Hughes.
MR. HUGHES: Judge, if the Court is inclined to
accept this plea, the essence of it is is that the Court, if you
agree, would bind itself to sentencing Mr. Dewberry to a
term of 60 months imprisonment. That is reflected in
paragraph 10 of the plea agreement. And I believe it’s
also contained in paragraph 6A of the plea agreement.
THE COURT: All right.
MR. HUGHES: And 6F of the plea agreement and
6G of the plea agreement. Did the Court want me to go
beyond?
THE COURT: No. Well, Ms. Carie, you want to
point out any other provisions? Since this is a binding plea
agreement, and, of course, there’s some language about
the guideline applications, but we still have to do that to
have probation office apply the guidelines. So why don’t
you tell — and although the binding plea agreement is
going to override whatever the guidelines say if I accept
it.
MR. HUGHES: Correct.
THE COURT: All right. Ms. — do you want to

75a
point out any other parts of the plea agreement, Ms.
Allen?
MS. ALLEN: I’ll just point it out just to clarify
this, and I’ve gone over this with Mr. Dewberry. So the
plea agreement is — as it stands right now, we’re going to
have a [25] presentence investigation. And after we get
the presentence investigation, your report back, the judge
will decide whether or not he’s going to accept the binding
plea agreement. You understand that, right?
THE DEFENDANT: Yes.
MS. ALLEN: And if he accepts the binding plea
agreement, he will give you 60 months. That’s required.
And you understand that, right?
THE DEFENDANT: Yes.
MS. ALLEN: And if he tells us that he is not going
to accept the binding plea agreement, you are allowed —
and it says here in writing you are allowed to withdraw
your plea, and we would be back to the same position we
were before you entered into the plea agreement. You
understand that, right?
THE DEFENDANT: Yes.
MS. ALLEN: Okay. That’s all I wanted to go over.
THE COURT: Thank you.

76a
All right. Mr. Dewberry, so let me ask you some of
the same questions. If I accept your plea of guilty, and it
appears I will, I’m going to — I’m going to order a
presentence investigation. That will be conducted by a
federal probation officer. The purpose of that is to give
me more background information on you so I will be able
to determine whether I can accept this binding plea
agreement.
So we order the presentence investigation. The
federal [26] probation officer will do the investigation and
write the written report. You and our attorney get a
written copy of it as well as the government’s attorney.
You want to go over that because information in there can
affect whether or not I accept the binding plea agreement.
That presentence report will give me your
educational history. It will give me your work history. It
will give me your criminal history. But also in there, it’s
going to give me more background information on you on
this case.
So you go over it — we want to make sure it’s
accurate — with your attorney. If there’s anything in
there that you or she or both of you think is inaccurate —
inadequate, what happens then is Ms. Allen will notify or

77a
contact the probation officer who wrote the report and
point out what you and she disagree with. If the probation
officer agrees that they got something wrong, they’ll
change it.
But on the other hand, if they think what they put
in there is correct, then we have a dispute that’s got to be
resolved before we can have a final sentencing hearing. I
will be notified. And with that notification, we’ll set up a
date for a hearing to resolve those — the dispute about
what ought to be in that presentence.
At that hearing, you can call witnesses to support
your position. You can testify yourself about it. If the
government takes a different position, they can call
witnesses. Now, if [27] you call witnesses, the government
can cross-examine your witnesses. And if the government
calls witnesses, your attorney can cross-examine the
government witnesses.

And if you testify, the

government can cross-examine you.
What I’m explaining, Mr. Dewberry, is what we
call a full evidentiary hearing. So when all the evidence is
in, then I’ve got to rule on those disputed — the disputed
issues. We’re trying to determine what the true facts are.
Now, when I say rule, if I rule contrary to your

78a
argument, your position of what the facts are, that will not
be the basis to allow you or permit you to withdraw this
plea of guilty. Do you understand that?
THE DEFENDANT: If you rule — say that last
part again.
THE COURT: Sure. We’re going to have that
hearing just to make sure we’re all looking at the same
facts when we apply the Federal Sentencing Guidelines.
So if there’s disputed facts, then I’ll hear evidence about
supporting what those facts ought to be from you, from
the government. Then I’ll rule.
Now, if I don’t accept your version of the facts, that
will not be the basis to permit you to withdraw this plea of
guilty. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: All right. And, of course, this is a
binding plea agreement. Again, once we establish the
factual basis, and we’ll still apply the guidelines to give
everybody [28] including me, what the guidelines tell us is
a reasonable sentence.

I need all that before I can

determine whether I will accept the binding 60-month
sentence. Do you understand that?
THE DEFENDANT: Yes.

79a
THE COURT: That’s how we’re going to do it.
But the thing that’s important to you, if I can’t accept it,
I’ll tell you and probably tell you why I can’t accept it and
permit you to withdraw your plea of guilty. So you will
still stand with a plea of not guilty in place, and we’ll just
set it for trial like we have for today, and we’ll have a jury
trial. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: Okay. Then, of course, paragraph
6A says the Court must impose a sentence of 60 months
and a term of supervised release not to exceed three
years.

That’s what we’re all talking about.

Do you

understand that?
THE DEFENDANT: Yes.
THE COURT: And if I can’t do that, we’ll set aside
the plea.
And again, paragraph 6F, the Court isn’t bound by
the sentencing guidelines. And if I do not agree to impose
a 60-month sentence, then I will allow you to withdraw
your plea of guilty. That’s mentioned in paragraph F.
That’s what we just talked about.
All right. Let’s see if there’s anything else we need
to [29] talk about in here. It talks about preparing the

80a
presentence report. And then it agrees with the guideline
calculations in paragraph 10. But again, paragraph 10
says the United States agrees not to seek a sentence
beyond 60 months, and the defendant agrees not to seek
a sentence below 60 months. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: All right. Now, paragraph 10G is
referring back to what you and I talked about, any factual
disputes. If there’s any disputes about what facts ought
to be considered in determining your sentence, we have
that hearing we talked about. Paragraph 10 says, “The
defendant consents to judicial fact finding by a
preponderance of the evidence for all issues pertaining to
the determination of defendant’s sentence.”

Do you

understand that?
THE DEFENDANT: I think so.
THE COURT: Okay. Well, here. Here’s why
that’s in here. The Federal Rules of Criminal procedure
say any facts that can affect the defendant’s sentence
must be decided by a jury. Now, we agree we’re not going
to have a jury here to do that, to agree on determining
disputed facts. So then our rules of criminal procedure
say that in that event, then the sentencing judge, if there’s

81a
any dispute as to what the facts are, then the judge who’s
going to pronounce a sentence can hear the facts, hear the
witnesses. That’s what we talked about. You can call [30]
witnesses. The government can call witnesses. You can
testify yourself. Says the sentencing judge can hear the
evidence and then rule what the facts are.

Do you

understand that?
THE DEFENDANT: Yeah.
THE COURT: Then the determination of the facts
then determine how they would be applied to the Federal
Sentencing Guidelines. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: So that’s what this is talking about,
that you agree — “The defendant consents to judicial fact
finding by a preponderance of the evidence for all issues
pertaining to the determination of the defendant’s
sentence.” Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: Do you now agree to that?
THE DEFENDANT: Yes.
THE COURT: All right, sir. Paragraph 15 spells
out that by pleading guilty, you’re limiting any appeal you
can file. Paragraph 15B says, “The defendant expressly

82a
waives his right to appeal his sentence directly or
collaterally on any ground except ineffective assistance of
counsel, prosecutorial misconduct or an illegal sentence.”
And an illegal sentence in this case would be a sentence
other than five years. Do you understand that?
THE DEFENDANT: Yes.
[31]

THE COURT: If I sentence you any way other

than five years, you can — any different than the 60
months or five years, you can appeal that sentence. Do
you understand that?
THE DEFENDANT: Yeah.
THE COURT: Do you agree to that?
THE DEFENDANT: Yes.
THE COURT: To that provision? All right. We’ve
gone over it three or four times, and everybody is in
agreement with it, Mr. Dewberry.
Now, that’s — again, that’s the plea agreement.
Have you been threatened or coerced in any manner to
cause you or force you to enter into this binding plea
agreement?
THE DEFENDANT: No.
THE COURT:

Now, I’m going to have you

acknowledge that you signed it. This is the original. This

83a
is the one that goes in the Court file. It’s a 12-page
document. On the 11th page is Mr. Hughes’ signature
binding the government to the terms and your signature
binding you to the terms of this agreement. And then, of
course, on the next page is your attorney’s signature
acknowledging that she’s gone over this with you and
explained it to you. Do you see that?
THE DEFENDANT: Yes sir.
THE COURT: Is that your signature?
THE DEFENDANT: Yes.
THE COURT: All right. Before you signed it, did
you go [32] over it with your attorney?
THE DEFENDANT: Yeah.
THE COURT: Did you have her explain any part
of it to you that you didn’t understand?
THE DEFENDANT: Well, I was kind of worried
about the $250,000.
THE COURT: Oh, the fine?
THE DEFENDANT: It’s kind of a lot of money
that I don’t have.
THE COURT: Well, nobody is going to make you
pay a fine that you don’t have money for. They may assess
it, but we’re not talking about the fine. That’s not part of

84a
the punishment. I mean, that’s part of the punishment,
but this is a binding plea agreement. It’s 60 months
period, nothing about money. Do you understand that,
Mr. Dewberry?
THE DEFENDANT: Yeah.
THE COURT: All right. Again, have you been
threatened or coerced in any manner to cause you or to
force you to enter into this plea agreement?
THE DEFENDANT: No.
THE COURT: All right. You’re represented by
Ms. Carie Allen. First you represented yourself, and then
we appointed Carie Allen to assist you because I was
concerned about going over that plea agreement and
getting ready for trial and help you get ready for trial.
Are you satisfied with her assisting [33] you in this case?
THE DEFENDANT: Yeah.
THE COURT: Has she done everything you’ve
asked her to do in acting as your attorney in this case?
THE

DEFENDANT:

We’ve

had

some

disagreements on some things.
THE COURT: All right. Did you get them worked
out?
THE DEFENDANT: I hope so.

85a
THE COURT: Okay. All right. All right. Has she
failed to do for you anything you’ve asked her to do?
THE DEFENDANT: Not at this point.
THE COURT: Okay. All right. Ms. Allen, do you
have any questions you wish to ask your client?
MS. ALLEN: No, I won’t ask him any questions.
THE COURT: Thank you. Now, Mr. Dewberry,
we’re done.

Is there anything gone on you don’t

understand?
THE DEFENDANT: No, I understand.
THE COURT: Okay. If you’ll step down, come
back to the podium, I’m going to accept your plea of guilty,
take the binding plea agreement under advisement, and
then I’ll tell you then we’ll discuss what happens then.
Mr. Dewberry, after questioning you under oath,
the Court finds your plea of guilty was entered into by
your understandingly, knowingly and voluntarily, and the
Court further finds that you — you’re entering into the
plea [34] agreement with the advice of counsel; was
entered into by you understandingly, knowingly and
voluntarily. And I’m going to accept your plea of guilty
and enter a judgment of guilty against you at this time so
we can order that presentence investigation.

86a
When the presentence investigation — I’ll order a
presentence investigation by the U.S. Probation and
Parole office. When it’s back, you get a copy of it as well
as the government and your attorney. That kicks in the
time. You have 14 days to go over it to see if there’s
anything wrong.
If there is, your attorney and the probation officer
will try to work it out. If they can’t get it worked out,
that’s when they let me know, and we have that hearing.
And at that point, I will advise you whether or not I can
accept — accept this binding plea agreement that
requires me to impose a 60-month sentence on you. And
if I can, I’ll do it. And if I can’t, I will permit you to
withdraw your plea of guilty and set aside the plea of
guilty and the plea agreement, and we’ll set the matter for
trial. Do you understand that?
THE DEFENDANT: Yeah.
THE COURT: But I can’t — and I won’t commit,
no judge would, to being bound by the plea agreement
until we get all the information in the case, the
presentence and the other information and all the
information pertaining to this case.
understand that?

Do [35] you

87a
THE DEFENDANT: Yeah.
THE COURT: This is — well, this is standard, the
standard way we do it, Mr. Dewberry, anytime we have a
binding plea agreement. So we’re done as soon as I check
with the lawyers.
Anything further from the government?
MR. HUGHES: No, Your Honor.
THE COURT: Anything further by the defense?
MS. ALLEN: No, Your Honor.
THE COURT: Have I — anybody — probation,
have I missed anything I need to ask to allow you to get
me a presentence?
PROBATION OFFICER: No, Your Honor.
THE COURT:

Okay.

Mr. Dewberry, has

anything gone on that you don’t understand?
THE DEFENDANT: No.
THE COURT: All right. I’m remanding you to the
custody of the marshals to continue in custody until we
have that sentencing hearing, all right, sir?
Where are they keeping you? Where are you?
MS. ALLEN: CCA.
THE COURT: CCA?
THE DEFENDANT: Yeah.

88a
THE COURT: All right. Thank you. You may
step aside.
[36]

Be in recess.
(Court adjourned.)
*

*

*

(End of requested transcript)
-oOoI certify that the foregoing is a correct transcript from the
record of proceedings in the above matter.
Date: April 11, 2017
/s/_______________________
Signature of Court Reporter
Barbara Barnard

89a
APPENDIX E
[1] IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
________________________________
)
UNITED STATES OF AMERICA )
) CASE NO. 15-CR) 00053-DW-1
VS.
) KANSAS CITY,
) MISSOURI
)
ANDRE G. DEWBERRY
)
________________________________)
SENTENCING
BEFORE THE HONORABLE DEAN WHIPPLE
MARCH 1, 2017
APPEARANCES:
For the Plaintiff:

MR. STEFAN HUGHES
U.S. Attorney’s Office
400 E. 9th Street, Suite 5510
Kansas City, MO
64106

For the Defendant:

MS. CARIE ALLEN,
Assistant Federal Public
Defender
818 Grand, Suite 300
Kansas City, MO
64106

Transcribed by:

BARBARA BARNARD,

90a
RPR, CRR
Official Court Reporter
400 East 9th Street, Room
8420
Kansas City, Missouri 64106
(816) 512-5622
Proceedings recorded by mechanical stenography;
transcript produced by computer.
[2]

(Defendant present.)
THE COURT: Mr. Dewberry, why don’t you just

have a seat. The marshals advised me you’re walking with
a cane, so will you be more comfortable seated there?
Not going to talk to me. Okay.
Court will call Case No. 15-00053, United States of
America versus Andre G. Dewberry. Are you Andre G.
Dewberry?
THE DEFENDANT: Yeah.
THE COURT: And you’re represented by Ms.
Carie Allen; is that correct?
THE DEFENDANT: Not under my wishes.
THE COURT: Well, you started to go pro se in
this matter. And to get this plea worked out, it was helpful
to have an attorney. That’s why we appointed her to

91a
represent you. All right, sir? And I’m going to leave her
appointed. Now, Mr. Dewberry, you shouldn’t be doing
this by yourself.
THE DEFENDANT: I — I keep saying from the
beginning two years ago and I keep saying, the little voice,
I didn’t have a choice.
THE COURT: You didn’t have a choice for what?
THE DEFENDANT: But to do it by myself.
THE COURT: All right. I understand you, but
I — I think Judge Larson even talked to you about that,
didn’t he?
THE DEFENDANT: Yeah, and —
THE COURT: Yeah.
[3]

THE DEFENDANT: And, I mean, I — I wrote —

I sent quite a bit of paperwork —
THE COURT: Yes, sir, you did. Yeah.
THE DEFENDANT: — in trying to explain every
time, and nobody’s — they don’t — it’s — they send me to
psychologists. And he even said, “The boy is not lying,”
and everybody keep saying this, and nobody just is —
nobody is listening. They’re just doing what they want to
do anyway. But I got to go to jail if I do it.
THE COURT: Mr. Dewberry, you broke the law.

92a
THE DEFENDANT: I know it.
THE COURT: All right.
THE DEFENDANT: I understand it.
THE COURT: And there’s punishment attributed
to it, all right, sir?
THE DEFENDANT: I thought we was going to
play fair. It’s not —
THE COURT: Well, let’s talk about it. You pled
guilty on September 19 of last year to being — to the
charge of being a previously convicted felon in possession
of a firearm pursuant to a binding plea agreement. I took
the binding plea agreement — I accepted your plea of
guilty with the understanding that if I couldn’t accept that
binding plea agreement, you could set aside your plea and
go to trial. Do you remember that day?
[4]

THE DEFENDANT:

Yeah.

You stated you

wanted to see a PSI.
THE COURT: Yes, sir.
THE DEFENDANT: And I — I mentioned a
year-and-a-half ago with Mr. Larson that the sentencing
— they were oversentencing me, and nobody said — they
told me I didn’t understand the law. And so I wrote — I
got some books. They said they were the law books, and

93a
I wrote it down. And I said this is the law, and they said,
well — and come to find out I was right according to the
PSI people. But nobody really didn’t listen to me in the
beginning.
THE COURT: Well, so you’re now saying the PSI
is right?
THE DEFENDANT: I said that a year-and-a-half
ago.
THE COURT: Okay.
THE DEFENDANT:

I said a year-and-a-half

ago, this is the sentencing guideline system that the
federal government has set up, and everyone told me I
didn’t know what I was talking about.
THE COURT: Oh, now, Larson didn’t tell you that
we didn’t use the sentencing guidelines. Didn’t they tell
you they were advisory? They’re not mandatory.
THE DEFENDANT: I understand.
THE COURT: Okay.
THE DEFENDANT: And Ms. Carie Allen, this
attorney that you have here, she said that that is not —
that the book don’t [5] know what it’s talking about. I said
okay. So I asked Mr. Larson. He said, well, you got to
talk to Mr. Whipple about it. So now we’re here talking to

94a
Mr. Whipple about it.
THE COURT: Okay. Yes, sir.
THE DEFENDANT: And, I mean, I mentioned
— I did mention this. And, I mean, I — and, you know,
everything I’ve said has been the truth from the
beginning, and I don’t understand — I thought this was
— I thought this was what we were supposed to be doing,
and I was foolish to even think that that’s what we were
standing on.
THE COURT: But you remember we went over
the binding plea agreement.
THE DEFENDANT: I understand that. And I
guess —
THE COURT: And the binding plea agreement
says if I accept it, the sentencing of 60 months.
THE DEFENDANT: Yeah, I know. And —
THE COURT: Okay.
THE DEFENDANT: And I just — I really didn’t
have a choice because I was told that if you don’t accept it,
it’s — you know, trial ain’t going to turn out good because
— here, what the — they — what Mr. — this gentleman,
the prosecutor put in his — his thing saying that I
fabricated a story that I proved to be true; and after I

95a
proved the story to be true.
THE COURT: Wait. What story are you thinking
was fabricated?
[6]

THE DEFENDANT: The story that he says that

I fabricated about being attacked and all this other stuff.
THE COURT: By being where?
THE DEFENDANT: I sent a brief to the Court.
Actually several copies for you and him.
THE COURT: Yes, I read those.
THE DEFENDANT: Right. He said that was all
fabrication because those records, the police records and
the ball, bat, none of that stuff exists, and I proved that it
did. It took me a while, but I actually have —
THE COURT: All right. So how does that change
the fact that you have these prior convictions?
THE DEFENDANT: It doesn’t change the prior
convictions.
THE COURT: Okay.
THE DEFENDANT: No, it doesn’t.
THE COURT:

All right.

So what’s in the

presentence you disagree with? Let’s get that resolved.
THE DEFENDANT: What do I disagree with?
THE COURT: That’s in the presentence. Yeah,

96a
we’re trying to arrive at the sentencing here.
THE DEFENDANT: In the — I mean, in the
presentencing, I said that the PSI is — the crime with the
prior convictions would constitute less time than what you
guys are offering me, and no one told me — they told me
that I didn’t know what I was talking about. So if you want
me to take a chance, we’ll go to [7] trial, because there’s
no way you would get under 60 months.
And — and I said according to the rules and
guidelines with the prior convictions that I have, because
I took those into account, this is what my crime constitutes
as my punishment.
Now, if you feel that because I’m not liked by the
courts that I should do extra time, I guess so be it.
THE COURT: It doesn’t have anything to do with
— I don’t have any like or dislike for you. I’ve got a job to
do, and the guidelines are advisory. You negotiated a
binding plea agreement. I questioned you under oath
concerning that, and you agreed to be bound by it. Now
you’re wanting to back out, right?
THE DEFENDANT:

I argued this in the

beginning.
THE COURT: Okay. But we’re way past the

97a
beginning.
THE DEFENDANT: I understand it. And the
interesting thing is that whatever happens in the
beginning, it doesn’t matter.
THE COURT: That’s correct, because there’s give
and take on both sides. This matter was set to go to trial,
and we were getting ready to go to trial, and you
negotiated this binding plea agreement. And you signed
it, and you acknowledged under oath that you signed it
and you agreed to be bound with it.
Now, why — are you wanting to back out of that
binding plea agreement? I think everybody knew it was
going to be a little [8] bit higher than the guidelines. But
you remember I told you the guidelines are advisory. I
don’t have to follow them.
THE DEFENDANT:

The guidelines — it

actually came back a lot lower.
THE COURT: No, it didn’t. It came back three
months lower than high. Hang on a minute. Where’s my
copy?
The guideline range is 46 to 57 months.
THE DEFENDANT: Yeah, I mentioned this to
my psychologist a year-and-a-half ago.

98a
THE COURT: All right, sir. Okay.
THE DEFENDANT: And I mentioned it to the
courts a year-and-a-half ago.
THE COURT: All right.
THE DEFENDANT: But I don’t know the law.
THE COURT: That’s why you have an attorney.
THE DEFENDANT: Well, I mentioned it to the
person you gave me for an attorney, and they — she told
me I — shut up, I don’t know what I’m talking about.
THE COURT: Terri, go on my desk and see if you
can find my calculation sheet. I didn’t get it.
That’s water under the bridge.
THE DEFENDANT: Yeah, I guess —
THE COURT:

We’ve got a binding plea

agreement. Now, tell me why you don’t think you’re now
bound by it.
THE DEFENDANT: I signed it. There’s — I
don’t have [9] a — according to the stipulations, there’s —
once you sign it, there’s no way out of it.
THE COURT: That’s the way I see it too. Yes, sir,
unless you can tell me that something happened that I
should let you out of it, and I’m not hearing it. Just
because it’s your agreed sentence, and I think — I know

99a
we knew that at the time you entered into it, that it could
come out higher than the guidelines, but —
THE DEFENDANT: I already knew.
THE COURT: But it’s half the statutory limit, 120
months.
THE DEFENDANT: I knew it wasn’t coming
back higher. I argued that from the beginning. It doesn’t
—
THE COURT: Well, Mr. Dewberry, do you want
to back out of the binding plea agreement and go to trial?
Now, that’s the bottom line. You’ve been in the legal
system for years.
THE DEFENDANT: If I could go — if I could go
to trial from what — because I don’t know a lot about the
law, I would probably prefer, because at this point I was
going to ask the Court if there’s no way out of this plea,
then if there’s any way — because basically I’ve lost so
much. And if I’ve already asked for the — for — I’ve
asked the courts over and over again, which nobody keeps
hearing me, for — what you call it when they put you in
the little chair with the thing on your head? What they
call that? Put the needle in your arm and they [10] put
you in the ground.

100a
No, the other thing they call it. I mean, whatever
it — because, see, nobody understands how much I lost in
this whole situation, because nobody says, well, I mean,
what would make a person who’s actually go and do a
particular thing and let me even hear why he done it.
Now, I actually proved without a shadow of a doubt
to the courts what would make me do such a thing. That’s
all I ask. And the Court says, well, we don’t care.
So I would prefer at any given chance that if I have
to keep living like this, then I would like to — I got some
addresses. I want to be moved as far away as possible and
hopefully — I mean, you know what I mean? My family,
everything I’ve lost. There’s nothing. I have nothing left
to give.
THE COURT:

Mr. Dewberry, you were a

convicted felon —
THE DEFENDANT: I got you.
THE COURT: — with a gun.
THE DEFENDANT: I got you, sir.
THE COURT: Bottom line.
THE DEFENDANT: I got you.
THE COURT: This is not a social welfare agency.
THE DEFENDANT: I understand.

101a
THE COURT: You understand that?
THE DEFENDANT: I said —
THE COURT: You entered into a binding plea
agreement. [11] You haven’t shown me any good reason
why I ought to let you out of it other than you — nobody
would listen to you. I listened to you on the day you pled
guilty, and I found you entered into your plea
understandingly, knowingly and voluntarily. I accepted
that plea agreement. I took the binding plea agreement
under advisement until I got the presentence, all right,
sir?
Now, the presentence is back, and the — we’re now
here to resolve whether I’m going to accept that binding
plea agreement. Before we do that, let’s put on the record
your concerns here about the guidelines.
Now, in the presentence, it shows a total offense
level of 21 points. Shows you have a criminal history
category of III.

The sentencing range under the

guidelines is 46 to 57 months. Any period of incarceration
to be followed by one to three years supervised release.
The fine range is $7,500 to $75,000. Excuse me. And there
must be a $100 special assessment.
Is there any objections to the calculations of the

102a
guidelines by the government?
MR. HUGHES: None at all, Your Honor.
THE COURT: Is there any by the defense?
MS. ALLEN: Not to the guidelines, no, Your
Honor.
THE COURT: Thank you.
Mr. Dewberry, do you have any further challenge
to the calculations of the guidelines which validate what
you’ve been talking about?
[12]

THE DEFENDANT: All I can say is, I mean, I

don’t have 75,000. There’s numbers that I don’t have. I’m
not going to have tomorrow. In five years from now, I’m
not going to have $250,000. I know that.
THE COURT: I know. We know that.
THE DEFENDANT: Well, you put it down there
saying that I owe it. And I don’t understand that I owe
the $250,000, and I know I ain’t got it.
THE COURT:
Calm down.

Wait a minute, wait a minute.

These are advisory guidelines.

They’re

calculations. That’s all they are.
Do you have any further objections to the
calculations of the guidelines? I know you don’t like them.
That’s one matter.

But there they are, hard written

103a
paper. Any further objections other than you don’t like
them?
THE DEFENDANT: I said that a long time ago.
THE COURT: What did he say?
MS. ALLEN: He agrees that the numbers are
right. He said that a long time ago.
THE COURT: Okay. All right. Then the Court
finds those are the advisory guidelines.
Now, let’s address the binding plea agreement.
The government have anything further to say on the
binding plea agreement that I need to know?
MR. HUGHES: No, Your Honor. I would hope
that the [13] Court would enforce the binding plea. It’s —
it’s fair and just under these particular circumstances, so
I would humbly ask the Court to accept the plea as
configured back on September 19th, 2016.
THE COURT: On the eve of trial as I recall.
MR. HUGHES: I’m sorry?
THE COURT: On the eve of trial, wasn’t it?
MR. HUGHES: On the day of trial, yes.
THE COURT: On the day of trial. Okay.
Anything — further information on the binding
plea agreement, Ms. Allen?

104a
MS. ALLEN: Just briefly, Your Honor. I think
the Court may recall that one of the things that Mr.
Dewberry really wanted to do is he wanted to put forth
sort of a necessity defense in this case, and that’s where
we ran into a lot of issues.
THE COURT: Yes.
MS. ALLEN: And what I told him when this was
going on is he really wanted his story told. He wanted the
Court to understand why he had the gun. This was a
situation where he never denied having the gun. He
wanted to be able to tell why he had it. And I think we all
kind of went round and round about why that wasn’t a trial
issue. That was a sentencing issue.
And so I did file a sentencing memo in this case.
And I [14] know we often don’t do that in binding plea
agreements, but I did that because I told Mr. Dewberry
that I would tell the Court why he had the gun because
that’s very important to him.
THE COURT: Okay.
MS. ALLEN: And I handed that out. I handed
him a copy, and I know the Court has read it. But Mr.
Dewberry was a victim of violent crime before this. He
was beaten with a baseball bat. His car that belonged to

105a
him and his fiancee Gwen Williams was set on fire. And
then I attached the newspaper articles that actually show
that after he went into custody, Ms. Williams was actually
the victim of an arson, murder.
And, you know, I think that that’s also contributed
to a lot of the issues; kind of like a lot of the depression
and I think a lot of the publicity that he’s had since he’s
been in here. He was out there. He felt like he needed to
protect himself, and he felt like he needed to protect her
when he was out there. And he knew he couldn’t have a
gun, but he had one because he felt like he needed to
protect them. And then he goes into custody and he
couldn’t protect her. And I know that’s got to be tough.
And I do want the Court to take that into account.
THE COURT: I will take that into account, and I
understand that. Anything else?
MS. ALLEN: Your Honor, I think we have the
rest of it in the sentencing memorandum, and we would
just ask the Court to follow the binding plea for 60
months.
[15]

THE COURT: All right. I’ve read the sentencing

memorandum. In fact, I read it twice.
Mr. Dewberry, the curious thing I’ve found in the

106a
sentencing memorandum was the gun didn’t work. Did
you know that at the time you had it in your possession?
THE DEFENDANT: Yeah.
THE COURT: Well, why — what would you think
would have happened if you’d have pointed that at
anybody, at someone else who had a gun?
THE DEFENDANT: You know what?
THE COURT: No, I don’t know what. That’s just
mind boggling.
THE DEFENDANT: Because I keep saying —
because I’m not trying to be hard to get along with, sir.
I’m really not.

And I tried to explain this from the

beginning, and it seems that everybody gets mad because
they tell me I’m either foolish, stupid, retarded or — you
know, they got a lot of other words instead of actually not
listening to what I’m saying. And in actuality, my intent
is not to hurt anyone, see? And knowing that.
So nine times out of ten, if you — if a person thinks
that if — if you think I got a gun, if you come to harm me
and I go, “Hey, stop,” and you think I’ve got a gun, you’re
going to stop. That’s going to give me an opportunity to
get the hell away from you.
[16]

THE COURT:

I understand that that’s your

107a
reasoning.
THE DEFENDANT:

And now I had enough

sense to figure that out.
THE COURT: Oh, I agree with that, but the point
of it is what if the other guy has got a gun?
THE DEFENDANT: Then so be it.
THE COURT: You’re behind the eight ball.
THE DEFENDANT: I don’t have the intent to
hurt anybody, so there’s really — nobody shouldn’t have
the intent to harm me.
THE COURT: Now, wait a minute. How does guy
that you approach pointing that gun, if he’s got a gun, how
does he know your gun is not loaded? Don’t you see the
risk of what you’re doing?
THE DEFENDANT: See, here’s the thinking. A
lot of people, right, if they think that they got the ability
to get harmed just as much as they’re going to harm you,
they pretty much pause.
THE COURT: Agreed.
THE DEFENDANT: Because you — I might get
hurt too. So if you come and you’re going to hit me in the
face and I say, “Huh-uh, I got a stick too.” Now, you don’t
know whether it’s a plastic stick or a whiffle ball stick. All

108a
you know is I got the same thing you got. So in your mind,
you’re going to think, “Hey, I might get hurt just as well
as I’m going to give the [17] hurting.” So you’re going to
pause for a second, which is going to give me the
opportunity to look for an escape route, see? Because now
I’m not cornered. I can escape.
THE COURT: All right.
THE DEFENDANT: And that was the reason for
it. But nobody wanted to — they didn’t care that you were
trying to escape.

And so Mrs. Williams would have

escaped; but, no, she did not.
THE COURT: All right. Now, you understand
that that’s not a defense as your attorney has tried to
explain to you.
THE DEFENDANT: Well, I mean, after you call
the police several times when this is happening, if
someone comes to you to harm you, you really don’t have
time to wait on the police because they’re not there to
escort you like they do some of the big stars.
THE COURT: Okay.
THE DEFENDANT:

So you got to think of

something that you’re going to be able to do right then
and there, I mean, if you’re going to use your head,

109a
because you’ve already been hurt several times. So since
you’ve been hurt several times and you’re looking in the
mirror at your scars and your wounds, you begin to think
to yourself, what about the next time this happens to me?
How am I going to get away?
THE COURT: I understand your position.
THE DEFENDANT: Yeah, really. Really?
[18]

THE COURT: Yes, sir. But my job is to apply the

law.
THE DEFENDANT: Yeah.
THE COURT: And I’m going to do it.
THE DEFENDANT: Yeah.
THE COURT: All right, sir?
THE DEFENDANT: Yeah.
THE COURT: All right. I understand — I’m
going to accept the binding plea agreement. I’m going to
find it was entered into by you understandingly,
knowingly and voluntarily. And you committed yourself
to it, and I’m accepting it, and I’ll commit myself to it.
I’m going to impose your punishment at 60 months
as you agreed to. Upon serving of that sentence, I’m
going to order that you be placed — now I’ve lost my
calculations here again.

I’m going to place you on

110a
supervised for three years under the supervision of the
U.S. Probation and Parole office. I’m going to find that
you do not have the ability to pay a fine or your costs of
incarceration. Those items will be waived. I will enter a
judgment against you in the amount of $100, a special
assessment judgment, which is a final judgment due and
payable today.
Upon advising you of the punishment I’m going to
assess against you pursuant to the binding plea
agreement, do you have any additional reasons why I
shouldn’t pronounce the sentence as you agreed to? Mr.
Dewberry, any other reasons you want me [19] to hear?
THE DEFENDANT: No. I just think it should
be appealed on the fact that everything I’ve been saying
from the beginning is not taken serious.
THE COURT: Well, you certainly can appeal it,
but any reason why I shouldn’t pronounce a sentence that
you would then be able to appeal?
Wait a minute. He’s waived his right to appeal
except on specific grounds, an illegal sentence or
prosecutorial misconduct. You’ve limited your appeal in
that plea agreement.
Dewberry?

Do you remember that, Mr.

111a
THE DEFENDANT: (No response.)
THE COURT: Any other reasons why I shouldn’t
pronounce this sentence on you?
MS. ALLEN: No, Your Honor.
THE COURT: No, he needs to answer. Any other
reasons I need to know about that I shouldn’t pronounce
this sentence?
THE DEFENDANT: You know, as I mentioned
earlier, I don’t know everything about the law. And, you
know, had I known that I would be sitting here, I — I don’t
— I only — you know what? This microphone don’t even
work because every time I ask for the records, I don’t —
I can’t get them, so it don’t even matter.
THE COURT: What do you mean? I’m hearing
you.
THE DEFENDANT: I meant like the records.
You know, the [20] other gentlemen there or at the
facility, they ask for their records from the courts and
they get them. But for some reason, my case is secret,
you know, hush-hush in the courtrooms that I can’t get
records.
THE COURT:
presentence?

Did you get a copy of the

112a
THE DEFENDANT: No. I want copies of these
transcripts.
THE COURT: No, I didn’t ask you that. Did you
get a copy of the presentence?
THE DEFENDANT: Yeah. They sent that, yeah.
THE COURT: Okay. Did you read that?
THE DEFENDANT: Yeah, I seen it.
THE COURT:

Did you go over it with your

attorney?
THE DEFENDANT: I mean, there’s — there’s
really nothing going to change in it. You just mentioned
that you was going to go with the 60.
THE COURT: I did. I did. How do you think the
transcript — what did you want transcripts of?
THE DEFENDANT: Of my court proceedings.
THE COURT: These proceedings?
THE DEFENDANT: My prior proceedings.
THE COURT: All your priors?
THE DEFENDANT: I needed the transcripts.
THE COURT: Why?
THE DEFENDANT: Why did I need them?
THE COURT: Yes.
[21]

THE DEFENDANT: So I can understand the

113a
law.
THE COURT: You didn’t need your — look, look.
You didn’t need your transcript to show that on July 21st,
1994, you were tried by a jury and found guilty of robbery
in the first degree. Why do you — do you remember that?
THE DEFENDANT:

I said the transcripts

coming here. I didn’t need the records from them. They
gave those to me.
THE COURT: Why do you need the transcripts
then?
THE DEFENDANT: You need the tran — what
you use the transcripts for is the things that are discussed
in the courtroom, sir, is that you take them and compare
them and you compare them against the law books that
are written that the Supreme Court and the Congress
have wrote, and you compare them against that to see that
the laws are followed and the procedures are followed in
the courtrooms.
THE COURT:

Mr. Dewberry, that’s why we

appointed a lawyer to represent you.
THE DEFENDANT: And I mentioned to you —
I sent you paperwork regarding that.
THE COURT: Yes.

114a
THE DEFENDANT:

And you dis — you

discredited it again.
THE COURT: That’s right, Mr. Dewberry. You
need a lawyer. You’re not an expert.
THE DEFENDANT: I never said I was.
THE COURT: Well, then why do you think that
you could [22] better understand the law and proceedings
than a lawyer?
THE DEFENDANT: Well, I mean —
THE COURT: Come on now. You’re playing
games with me, Mr. Dewberry.
THE DEFENDANT: No, I didn’t say I —
THE COURT: Yes, you are.
THE DEFENDANT: Okay. See, that’s what I
mean. You’re —
THE COURT: No, I should tell you what I mean.
I mean you have a lawyer because you don’t know the law.
And that’s why we appoint lawyers to represent you even
though you thought you were smart enough to represent
yourself. And I’m sorry, they talk about that where you’re
incarcerated, I’m sure at other prisons, but it’s wrong, Mr.
Dewberry. I just — unbelievable.
You have a high school education, right? Hang on

115a
a minute. Graduated from Paseo High School, 1983. And
then after getting out of high school, your employment
record. You were employed — last employment was with
New Horizons. Probation officer is unsure of your dates
of employment.

You reported no other employment

history.
IRS records indicate that in 2013, you were briefly
employed with Metropolitan Energy Center and earned
$600. And in 2012, you were employed by New Horizons
and earned $8,773. IRS records also confirm that in 2012,
you were employed by [23] Apprentice Personnel,
Overland Park, Kansas, and earned $1,681. IRS records
reflects no earnings for 2014 and ’15.
Missouri Department of Corrections confirm you
were previously employed as a produce manager at a
grocery store for approximately five years in the ‘90s.
What grocery store was that, Mr. Dewberry? Do you
remember?
THE DEFENDANT: You know, it almost seems
like you come off as though you care about my life.
THE COURT: I do.
THE DEFENDANT: I don’t — I don’t think so.
THE COURT: Well, that’s your — that’s your

116a
opinion. But the point of it is that you have a limited
employment history, and your history is you go out and
rob.
THE DEFENDANT: You think so.
THE COURT: Well, I’ve got a written record here
that says that.

You had a robbery in January 1994,

multiple DWIs on October 24th, 2002. Another robbery
first degree. You were tried and found guilty. It appears
you rob and you don’t want to work. Why shouldn’t I
observe that from your record?
THE DEFENDANT:

Well, see, here’s the

interesting things, sir, is that if you actually read the
material that I was — that I so graciously and I had
thought, being a human being, was sending to you, you
would have found out that I actually started my own
mother company right here.
THE COURT: Well, I guess I didn’t. When do you
start [24] your own company?
THE DEFENDANT: You didn’t read — you’re
not reading the material.
THE COURT: Yeah, I am.
THE DEFENDANT: No, you’re not. No, you’re
not.

117a
THE COURT:

You know, you’re — Mr.

Dewberry, you’re —
THE DEFENDANT: I have the business card,
sir.
THE COURT: All right. Let me see it.
MS. ALLEN: Bring it up?
THE COURT: Yeah.
THE DEFENDANT: It’s a company that me and
the young lady started.
THE COURT: Well, how come Internal Revenue
couldn’t find any information? Correction Enterprises,
Manager, Dewberry.
THE DEFENDANT: Yeah.
THE COURT: All right. There’s no record of any
employment, any income from this.
THE

DEFENDANT:

That’s

absolutely

correct —
THE COURT: Okay.
THE DEFENDANT: — because according to the
law —
THE COURT: I can print business cards saying I
own three banks in Kansas City, Missouri.
THE DEFENDANT: I pretty much knew you

118a
was going to say that. That’s why I never even —
[25]

THE COURT: Okay. Sure. Why shouldn’t I, Mr.

Dewberry?
THE DEFENDANT: That’s why I never mailed
it to you. That’s why I never mailed it to you. And the
rest of the records got burned in the home. I sent you
pictures of that.
THE COURT: Yeah, I did — I read that.
THE DEFENDANT:

No, you didn’t see that

neither.
THE COURT: Okay. Mr. Dewberry, I think you
and I have had enough exchange.
THE DEFENDANT: That’s what I’m saying.
THE COURT: You have any other reason why I
shouldn’t sentence you?

Shouldn’t sentence you?

Anything else?
MS. ALLEN: He says he’s ready to be sentenced,
Your Honor.
THE COURT: All right.
MS. ALLEN: And do you mind if — do you still
have the business card up there?
THE COURT: Yeah, here. Take it back.
MS. ALLEN: I told him I would get it back.

119a
THE COURT: Yeah. Retrieve it now.
THE DEFENDANT: Yeah, that’s personal, you
know?
THE COURT: Absolutely. Any other reason why
I shouldn’t — and, Mr. Dewberry, I needed to refresh my
memory too. In my order that I entered on January the
23rd of this year, I said before the Court are 63 pages of
documents filed by the defendant personally, and it’s filed
as 124.

It appeared to [26] be — he appears to be

presenting this to the Court as evidence, and then it
enumerates them. I’m not going over it again. So I saw
and reviewed them, all right?
You have any other reason why I shouldn’t
pronounce sentence on you?
THE DEFENDANT:

You’ve made it clear

anything I say is — doesn’t make sense.
THE COURT: Well, tell me anything else that you
want to tell me. Any reason why I shouldn't sentence you?
I've heard all your explanations of your history and so
forth. I've looked at the documents you've sent me, 63 of
them. Now, anything else — any other reason why I
shouldn't pronounce sentence on you?
THE DEFENDANT: I don’t want to argue.

120a
THE COURT: All right. Allocution is granted to
the defendant.

I’ve considered everything you’ve

submitted, Mr. Dewberry. The Court accepts the binding
plea agreement.
It is the judgment and sentence of this Court that
the defendant, Andrew G. Dewberry, shall be committed
to an institution or institutions to be designated by the
Federal Bureau of Prisons for a period of 60 months
pursuant to the binding plea agreement unless sooner
discharged according to law. Finds — the Court finds the
defendant does not have the ability to pay a fine or his
costs of incarceration. Those items will be waived.
[27]

Upon serving this sentence, Mr. Dewberry, when

you’re released from prison, you’re going to be put on
federal probation. You should conform your conduct to
the terms and conditions of supervised release that are in
effect when you get out of prison. In addition to those
standard conditions, I’m going to impose these special
conditions.
No. 1 — these are in the presentence. They start
at the bottom of page. 12.
To successfully participate in any substance abuse
counseling program, which may include urinalysis, sweat

121a
patch, Breathalyzer testing as approved by the probation
office and pay any associated costs as directed by the
probation office.
No. 2, you shall submit your person, any property,
house, residence, office, vehicle, papers, computer, or
other electronic communication or data storage devices to
be searched by a U.S. probation officer at a reasonable
time and in a reasonable manner based upon reasonable
suspicion of contraband or evidence of a violation of
condition of release. Failure on your part to submit to a
search may be grounds for revocation of this supervised
release, and you are directed to warn all other residents
that the premises that you occupy may be subject to
search pursuant to this condition.
No. 3, you shall not consume or have in your
possession alcoholic beverages or beer, including 3.2
percent beer, at any time and shall not be present in any
establishment where [28] alcoholic beverages are the
primary items for sale.
No. 4, you shall satisfy any warrants or pending
charges within the first 90 days of being placed on
supervised release.
No. 5, you shall comply with the Western District

122a
of Missouri’s offender employment guideline, which may
include participation in training, counseling, and/or daily
job searching as directed by your probation officer. If not
in full compliance with the conditions of supervision
requiring full time employment at a lawful occupation, you
may be required to perform up to 20 hours of community
service per week until employed as approved and directed
by your probation office.
No. 6, you shall be at your place of residence every
night between the hours of 10:00 p.m. and 6:00 a.m. seven
days a week unless your work schedule requires you to
work beyond 10:00 p.m. In that event, you shall be at your
place of supervision — or your place of residence within
30 minutes after your workday is complete.
The Court imposes this sentence after considering
the Sentencing Reform Act of 1984, considering the
guidelines as advisory, considering that this is a binding
plea

agreement

which

the

Court

approves,

and

considering the factors under 18 U.S.C. 3553 as a valid
reason to impose this sentence and accept this binding
plea agreement. The nature and circumstance — in
particular, the nature and circumstances of this offense,
the history and characteristics [29] of this defendant. As

123a
previously enumerated, he has two prior robbery first
degree criminal convictions, and both of which he cannot
— could not conform his conduct to the terms of
supervised release and was revoked one, two, three times
on the first one. I don’t know if I counted them on the
second one. Well, he wasn’t — you didn’t violate on the
second — well, you served them concurrently. What’s the
matter with me?
Anyway, to afford adequate deterrence to criminal
conduct by this defendant and to protect the public from
further crimes of this defendant and his belief that he can
do what he wants without any consequences and doesn’t
answer to any rules or regulations.
I’m imposing this sentence as a — for punishment,
deterrence, and to serve the ends of justice as a
reasonable sentence for the reasons I’ve just stated.
Now, Mr. Dewberry, I’ll give you credit for the
time I’ve imposed upon you for the time you’ve been held
in custody awaiting this final disposition.
Lastly I need to advise you you have 14 days from
today to appeal this sentence or any ruling I have made at
this sentencing here preliminary to imposing having this
hearing and in this hearing today.

124a
You’re represented by Ms. Carie Allen. Are you
satisfied with the representation of you by her?
THE DEFENDANT: (Witness shakes head.)
[30]

THE COURT: What has she failed to do besides

get you off, and that wasn’t going to happen?
THE DEFENDANT: (No response.)
THE COURT: Mr. Dewberry, if you don’t give me
specific reasons what she’s failed to do, I’m going to find
she’s adequately represented you.

You can be as

obstinate as you want to. You know the system well. You
know what you need to do, and that’s what you’re doing.
Now, what has she failed to do?
THE DEFENDANT: I think you’re just wanting
to argue, sir. I don’t want to argue.
THE COURT: All right. I’m finding you stated no
valid reason that she’s failed to do anything. I find she’s
adequately — more than sufficiently represented you
because of your obstinate attitude.
All right. Anything further by the government?
MR. HUGHES: No, Your Honor.
THE COURT: Anything further by the defense?
Mr. Dewberry, do you have any thought where you
might want to be incarcerated? I’ll even consider that.

125a
You’ve been —
THE DEFENDANT: You’re going to just blow
them off anyway.
THE COURT: No, I’m not. I’m going to make a
recommendation to the Bureau of Prisons, except it will
be in a federal facility. I can’t send you to a state prison.
[31]

THE DEFENDANT: I mean, everything I say

is —
MS. ALLEN: He’ll put it in the judgment.
THE DEFENDANT: — always considered some
bullshit.
MS. ALLEN: If there’s a place, there’s a place. If
there’s not, there’s not. But is there a place? Do you want
him to Leavenworth, stay close?
THE DEFENDANT: Fuck no.
MS. ALLEN: Okay. No, no recommendation.
THE COURT: Okay. All right. Thank you. I’ll
remand you to the custody of the marshals for execution
of the sentence. Court will be in recess. Good luck to you,
Mr. Dewberry.
MS. ALLEN: Your Honor, we have written down
some recommendations. I’ll just hand them to you.
THE COURT: What, what?

126a
MS. ALLEN:

He has written down some

recommendations, so I’ll just hand them to you.
THE COURT: Oh, okay. Here’s that — do you
want me to — wait a minute, Mr. Dewberry. Do you want
me to do this?

You had written down Memphis,

Tennessee or Perkins, Illinois; is that correct? Do you
have any objection if I recommend to the Bureau of
Prisons they consider placing you in the FCI in Memphis
or the FCI in Perkins, Illinois?
I’ll make those — no, here’s a third one. Oxford,
FCI Oxford, Oxford, Wisconsin.

I’ll make those

recommendations to the Bureau of Prisons. That’s all
they are, Mr. Dewberry.
[32]

Be in recess.
(Court adjourned.)

*

*

*

(End of requested transcript)
-oOoI certify that the foregoing is a correct transcript
from the record of proceedings in the above matter.
Date: April 11, 2017

127a

/s/_______________________
Signature of Court Reporter
Barbara Barnard

